<html>
<title> - THE NEW FACES OF AMERICAN MANUFACTURING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                THE NEW FACES OF AMERICAN MANUFACTURING

=======================================================================

                                HEARING

                               BEFORE THE
                               
                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 12, 2016

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                               

            Small Business Committee Document Number 114-060
              Available via the GPO Website: www.fdsys.gov
              
              
                               ____________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-075                         WASHINGTON : 2016                       
              
              
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
                       Jan Oliver, Chief Counsel
                  Michael Day, Minority Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. John Ratzenberger, Fiddlers Bay Productions, Milford, CT.....     4
Mr. Dustin Tillman, President and CEO, Elite Aviation Products, 
  Irvine, CA.....................................................     7
Ray Perren, Ph.D., President, Lanier Technical College, Oakwood, 
  GA, testifying on behalf of the Association for Career and 
  Technical Education............................................     9
Ms. Kim Glas, Executive Director, BlueGreen Alliance, Washington, 
  DC.............................................................    11

                                APPENDIX

Prepared Statements:
    Mr. John Ratzenberger, Fiddlers Bay Productions, Milford, CT.    25
    Mr. Dustin Tillman, President and CEO, Elite Aviation 
      Products, Irvine, CA.......................................    27
    Ray Perren, Ph.D., President, Lanier Technical College, 
      Oakwood, GA, testifying on behalf of the Association for 
      Career and Technical Education.............................    32
    Ms. Kim Glas, Executive Director, BlueGreen Alliance, 
      Washington, DC.............................................    38
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
                THE NEW FACES OF AMERICAN MANUFACTURING

                              ----------                              


                         THURSDAY, MAY 12, 2016

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Hanna, Luetkemeyer, 
Gibson, Radewagen, Knight, Curbelo, Hardy, Kelly, Velazquez, 
Chu, Hahn, Meng, Lawrence, Clarke, and Adams.
    Chairman CHABOT. The Committee will come to order. Good 
morning. We want to thank everyone for being with us today as 
we discuss the present and future state of American 
manufacturing.
    Given the importance of manufacturing to our economy, I am 
delighted to be holding this hearing and listening to the 
testimony provided by our outstanding panel here this morning. 
When people think of manufacturers, too often they think of 
giant corporations with huge production facilities and steam 
whistles commanding shift changes. The truth is that the vast 
majority of American manufacturing is done by small businesses. 
In fact, 99 percent of all manufacturers are categorized as 
small.
    Though they might be considered small, their effect on our 
economy is enormous. Manufacturers in the United States employ 
over 12 million people and directly contribute over $2 trillion 
to our economy each year. We cannot underestimate their 
indirect influence either. Every dollar spent on manufacturing 
in America adds $1.37 to the economy, and a single 
manufacturing job can lead to the creation of three to five 
more jobs in other industries.
    Without a doubt, manufacturing plays a vital role in 
America's economic well-being. The economic force that is 
American manufacturing is now facing a significant challenge--
preparing a workforce that can do the job.
    According to the National Association of Manufacturers 
(NAM), over the next decade, nearly 3.5 million manufacturing 
jobs will likely be needed, and 2 million of those are expected 
to go unfilled due to what is being referred to as the skills 
gap.
    There are two major contributing factors to this widening 
gap: baby boomer retirements and economic expansion. An 
estimated 2.7 million jobs are likely to be needed as a result 
of retirements of the existing workforce, while 700,000 jobs 
are likely to be created due to natural business expansion and 
growth.
    In addition to retirements and economic expansion, other 
factors have contributed to the shortage of skilled workforce, 
such as lack of science, technology, engineering and 
mathematics, or STEM, skills among workers, and a gradual 
decline of technical education programs in public high schools.
    Frankly, another big problem plaguing American 
manufacturing is its perception. As the old saying goes, 
perception is reality. The things we build, the way we build 
them, and the skills required to do so are significantly 
different than in generations past. This is not your 
grandfather's, or even your father's industry anymore. It is 
high-tech. It is skills-based, and it provides good jobs with 
good benefits that can provide for growing American families.
    We must do a better job educating young people to improve 
the perception of what manufacturing really is, and getting the 
word out that manufacturing oftentimes, for the most part, is 
clean, safe, and high-tech, rather than dirty and dangerous.
    I am looking forward to hearing your thoughts on the 
innovative ways that we can work together with academia, and 
manufacturers, and former actors on Cheers, to address the 
workforce development issues facing the next generation of 
American manufacturers.
    I would now like to yield to the Ranking Member, Ms. 
Velazquez, of New York.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    Throughout much of the 20th century, American manufacturing 
was the nation's economic engine. The country rose to its place 
as a global economic superpower as customers clamored for the 
latest American-made products. However, manufacturing sprawl in 
the U.S. economy has changed considerably since then, but 
today, we are seeing a manufacturing resurgence. Following 
years of decline, U.S. manufacturers added 856,000 workers to 
the payrolls in the last seven years. Moreover, the country's 
exports, a key measure of manufacturing activity, has been 
growing exponentially and are now at their highest level in 
recent memory.
    These are positive developments. With almost one-eighth of 
our economy rooted in manufacturing, strengthening this sector 
is vital to our country's overall economic health--and to job 
growth for working families and the middle class.
    Although this renaissance is promising for our nation, 
there remain challenges that are preventing this sector from 
reaching its full potential. According to the latest U.S. 
Census Bureau data, small and medium-size businesses account 
for 95 percent of world consumers, so we must ensure American 
small manufacturers have access to this global market. As the 
U.S. becomes an attractive destination for new manufacturing 
facilities, workforce training programs must adapt to provide 
the skills necessary for manufacturing jobs in the 21st 
century. Greater federal investment in Science, Technology, 
Engineering, and Math education will enhance domestic 
manufacturing. Local and private sector apprenticeship programs 
can prepare young people for careers in rapid growth areas.
    For manufacturers everywhere, access to capital is a 
persistent problem. This is especially true for smaller startup 
firms that are on the cusp of fast growth. For these reasons, I 
introduced the Scale-up Manufacturing Investment Company Act. 
This legislation will expand investment opportunities for small 
and emerging manufacturers. We must also remember that economic 
growth depends on innovation. Research and development fuels 
technological advancement, and it is critical in fostering new 
jobs.
    Unfortunately, the federal policy shift from domestic 
investment to deficit reduction could have severe implications 
for U.S. competitiveness in international markets and for 
manufacturing jobs. All of these and other challenges point to 
a need for concerted efforts at the federal, state, and city 
levels. In recent years, House Democrats have united behind the 
``Make It in America'' agenda, a series of proposals to 
strengthen and expand our manufacturing base. These efforts are 
important, but they can only succeed if they are guided by 
insight from the actual businesses. That is what makes today's 
hearing so important. As such, I would like to thank you for 
being here today and sharing your experiences.
    Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    I will now, before introducing our panel, explain briefly 
our rules. We operate on the 5-minute rule. You will each get 5 
minutes. We will get 5 minutes when you are finished to ask 
questions, and we have a lighting system to kind of assist you 
there. You have 5 minutes. The green light will be on for 4. 
The yellow light will come on when there is a minute to go, and 
then the red light will come on and we will ask you to wrap up, 
if at all possible, within that time. We will give you a little 
leeway.
    Now, to introduce our distinguished panel here today, our 
first witness is multi-Emmy-nominated actor, director, 
producer, author, and staunch Made in America advocate, John 
Ratzenberger. While he may be best known for his role as Cliff 
Clavin on the television show Cheers, or for his voice acting 
in Pixar movies, John has spent the better part of the past 2 
decades passionately campaigning about how important it is for 
Americans to recognize the needs for and to provide the 
training to produce skilled laborers. To that end, he produced 
and starred in the Travel Channel series Made in America, which 
highlighted American-made goods and the workers who build them. 
With speaking engagements across the country, he continues to 
encourage the reintroduction of trade, mechanics, shop, and 
carpentry skills back into the schools so that we can marry 
human talent and skills to today's innovative society in order 
to create a better America. Thank you for being with us today, 
Mr. Ratzenberger.
    Up next will be Dustin Tillman, Founder, President, and CEO 
of Elite Aviation Products in Irvine, California. Elite is an 
aircraft component design, engineering, and manufacturing 
company committed to providing cost-competitive, quality 
manufacturing, and customer-centric solutions to its clients. A 
graduate of the University of California-Los Angeles where he 
received his Bachelor of Arts degree in Economics and Political 
Science, Dustin entered the supply chain management industry 
and quickly attained a role of director of supply chain 
management for Zodiac Airspace, a multibillion dollar airspace 
company. More recently, he maintained a role in the business 
management sector for Panasonic Avionics Corporation, where he 
oversaw the strategic and tactical performance, as well as the 
business relationships of dozens of worldwide partners. We 
thank you also for being here this morning, Mr. Tillman.
    Our next witness will be Dr. Ray Perren, president of 
Lanier Technical College in Oakwood, Georgia. He is testifying 
on behalf of the Association for Career and Technical 
Education. Dr. Perren is completing his 36th year as an 
educator, and is currently leading efforts to construct a new 
main campus for Lanier Tech in Hall County, Georgia. He 
previously served as President of Wiregrass Georgia Technical 
College, as Assistant Commissioner for Technical Education for 
the Technical College System of Georgia, and is President of 
East Central Technical College in Fitzgerald, and is Dean of 
Academic Affairs for DeVry University's operations in Georgia 
and North Carolina. His first 20 years as an educator were 
spent in the Paulding County School System in Dallas, Georgia, 
where he served as a teacher, elementary and middle school 
principal, and as the district's superintendent of schools. We 
thank you for being with us here this morning also, Dr. Perren.
    And I would now like to yield to the Ranking Member, Ms. 
Velazquez, to introduce our final witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. It is my pleasure 
to introduce Ms. Kim Glas, executive director of the BlueGreen 
Alliance. Over the past 15 years, Ms. Glas has served in senior 
leadership positions in the Obama Administration and the U.S. 
House of Representatives, most recently serving as the deputy 
assistant secretary for Textiles, Consumer Goods, and Materials 
at the U.S. Department of Commerce. In that capacity, she 
worked to improve the domestic and international 
competitiveness of a wide array of products. She served for 10 
years on Capitol Hill, working extensively on manufacturing, 
trade, and economic policy issues for Congressman Mike Michaud 
from Maine, and Congressman John LaFalce from New York. 
Welcome. Thank you.
    Chairman CHABOT. Thank you very much.
    Mr. Ratzenberger, you are recognized for 5 minutes.

STATEMENTS OF JOHN RATZENBERGER, EMMY-NOMINATED ACTOR AND MADE 
  IN AMERICA ADVOCATE; DUSTIN TILLMAN, PRESIDENT & CEO, ELITE 
   AVIATION PRODUCTS; RAY PERREN, PRESIDENT,LANIER ECHNICAL 
   COLLEGE; KIM GLAS, EXECUTIVE DIRECTOR, BLUEGREEN ALLIANCE

                 STATEMENT OF JOHN RATZENBERGER

    Mr. RATZENBERGER. Good morning, everybody, and thanks for 
having me and inviting me up.
    You are probably still wondering, what does he have to do 
with manufacturing, this guy, this actor? I grew up in 
Bridgeport, Connecticut. At the time, it was the jewel and the 
crown of the industrial northeast. We pretty much made 
everything there. We made ships. We made rifles. We made boats. 
Bead chains for electric lights. As a matter of fact, evidence 
is mounting more and more that the first mechanized air flight 
took place there by a German immigrant named Gustave Whitehead 
2 years before the Wright Brothers.
    So that is the kind of town it was. Everybody had a skill. 
I grew up amongst people who knew how to do things. All the 
neighbors had skills. We never called a handyman into the house 
because if you could not do it, your father could not do it, 
your uncles, there was a neighbor. And everybody traded skills. 
Whether it was carpentry or electronics, everybody knew how to 
do something. As the years have gone on, we find that just the 
opposite now is happening. It is very difficult to find someone 
to lay bricks or to build cabinets, and we all know that. But 
there is a reason that happened, and it is because early on 
just after the sixties and into the seventies, we sort of got 
the idea that everybody has got to go to college. I went to 
college, but I can also build a house.
    When I was 14 years old, I decided, I want to learn to 
build a house and everything in it because I was surrounded by 
people who knew how to use tools. And I did. So after college, 
that is really what kept me alive was my carpentry skills. I 
raised my children in the same say saying get a skill that 
nobody can take from you, and also a skill that you can go 
anywhere in the world and tomorrow you will have a job. But 
when we were kids, also it was different because we were free-
range children. On Saturday it was, what are you doing inside? 
Get out. Go play. Well, that was it. That was the order. There 
was no structure to it. There was no helicopter parenting. We 
went outside and played. We built treehouses. We rode off on 
our bicycles 5, 10 miles from home. We did not even know our 
own telephone number. But, you know, the chain on the bicycle 
breaks, you have got to be home before the streetlights are on, 
well, you have got to fix that bicycle chain. So we thought we 
were playing, but in actuality, we were problem-solving every 
single day. When you are building a treehouse, you have got to 
put the ladder on the side of the tree and you knew very early 
on that you did not use finishing nails to put those ladders on 
because it popped out and before you know it you were in the 
hospital with a broken arm. It was part of the deal.
    But once again, we were problem-solving. We have taken that 
away from our children now. They do not grow up problem-solving 
anymore. We cosset at them and make sure that everything is 
okay in their world, and then when they get to college they 
have nervous breakdowns because things are not going their way. 
We did not get trophies for just showing up, and that was the 
big difference.
    But the most dangerous thing we have done for our 
civilization is that, again, in the seventies, you know, 30, 40 
years ago, we canceled shop classes and we canceled home ec 
classes because whether it was political experimentation, 
social experimentation, they said all boys and girls are the 
same and girls should not be in the kitchen and boys should not 
have this advantage, so we took those skills away from our kids 
and nowhere along the line do they learn those skills, 
especially if they do not have a father or an uncle to teach 
them that. Again, I was a carpenter and I made sure my kids 
knew how to handle tools, and to this day they are doing real 
well because of it because you also learn common sense when you 
use tools. But we took that away from the kids, too.
    So now we are in a situation where there are 600,000 jobs 
available in manufacturing. That is just in manufacturing. 
There are hundreds of thousands of jobs available in 
construction all over the country. But at one time we were an 
agrarian society. We grew up on farms or near farms. You learn 
the advantage of using tools because you had to. You could not 
call 1-800 fix my barn door when it blew off in a storm at 2:00 
in the morning. You dealt with it yourself and you saw your 
parents dealing with it and you knew that was possible in your 
life. So you stretched out more. Even during World War II, a 
lot of the accounts I read said we won it because if a Jeep 
broke down, at least 9 out of 10 people standing around knew 
how to fix it. Now that is not the case because we have so many 
people now, you know, we moved into cities since the Industrial 
Revolution, but even then we had shop classes to keep up with 
the Industrial Revolution. But we canceled those, so now the 
kids growing up in a lot of the cities, and if they do not have 
the advantage of growing up on farmland or near the sea, 
everything is done for you. Someone else picks up your garbage. 
Someone fixes the heating in your building. So your mindset 
growing up is, oh, somebody else will take care of it. That is 
not healthy for our civilization. We have to get back to the 
``I am capable of doing that. I can fix that. I can build 
that.'' So we must reinstate shop classes back in the schools. 
There has got to be a way of doing that. There is actually 
several ways of doing it.
    The disadvantage is that we are not going to have works 
showing up. The average age is 58 years old right now of people 
that know how to make things in the United States of America. 
When they are retired, that is it. We also have 70 percent of 
everyone incarcerated in the United States is a high school 
dropout. When the shop classes were canceled at schools 
nationwide, the dropout rate went up 30 percent because these 
kids had nothing to do. You were not offering them anything to 
do. Those of you in the room that know how to fix things, make 
things, you know a lot of self-esteem goes along with that. You 
do not need a trophy. You do not need someone to show up and 
say, here, good job for tying your shoes. Because you built 
that coffee table. You fixed that roof. Your self-esteem is 
just there. It is married to the accomplishment of making 
something with your very own hands.
    When I cross the country and I talk about this, and I have 
been doing it now for 15, 20 years, because when I was doing my 
show Made in America there was one thing, I went to a company 
that was making sports equipment. A specific sporting 
equipment. I do not want to say what it is because the CEO will 
get angry at me, but the man who was going around fixing all 
the machines, I was talking to him and I said, so you are 
probably pretty close to retirement, huh? He said, yeah, a 
couple of years. I said, what are you going to do? He said, 
well, go fishing, this and that. We started talking. I said, 
well, who are you training? He said, well, there is nobody to 
train. Kids come out of high school. They cannot even read a 
ruler because they do not teach them to use some tools. There 
is nobody coming up after this guy. This fellow's job was to 
fix the machines when they broke down. I said, what happens 
when the machines break down and you are not here? He said, 
they are going to have to fly in somebody from the company that 
made the machine. I said, that could take a couple of weeks. He 
said, yeah. That machine will be shut down for at least a 
couple of weeks, maybe three. Productivity stops and the orders 
stop because if you cannot deliver that product to the 
customer, they are going to go somewhere else for that product. 
That company could fail just for the want of that one man who 
knows how to use tools. I found that all over the country. That 
is what made me start, because I do love this country dearly. I 
lived overseas for 10 years, and I know what a great country 
this is. I know that it is the strength of America that keeps 
the world at peace. The strength of America is manufacturing. 
Manufacturing is to America what spinach is to Popeye.
    Chairman CHABOT. Mr. Ratzenberger, I think we will conclude 
with that if you do not mind. We will get a little longer with 
questions.
    Mr. RATZENBERGER. Oh, does this mean I am 3 minutes over?
    Chairman CHABOT. Yeah. Yeah, it does.
    Mr. RATZENBERGER. I thought I had 3 more minutes to go. I 
thought, geez, I thought I have been talking more than 5 
minutes. Well, thank you.
    Chairman CHABOT. Thank you very much. You will have more 
time. We will just get to questions.
    Mr. RATZENBERGER. I do not need it. You are fine. Thanks.
    Chairman CHABOT. Mr. Tillman, you are recognized for 8 
minutes and 17 seconds, apparently.
    Mr. TILLMAN. Thanks.
    Chairman CHABOT. No, 5 minutes, if you can.

                  STATEMENT OF DUSTIN TILLMAN

    Mr. TILLMAN. Thank you. Good morning, Chairman, Ranking 
Member, and members of the Committee.
    First off, wonderful remarks from the both of you. You hit 
the nail on the head.
    We are very proud, our company, to be an American 
manufacturing company. I am proud to be a part of the reshoring 
effort. We have been able to bring a lot of jobs back, and I am 
also proud to say that we have been able to take work back from 
China, believe it or not, by introducing some of these 
efficiencies, a focus on innovation that you guys made 
reference to.
    We are doing a lot of exciting things and we are supporting 
what is being referred to as the Second Golden Age of Aviation. 
When I started the company in 2013, there were certainly 
struggles that we faced. Struggles from a capital perspective 
as was alluded to. Struggles from a human capital perspective 
is what I want to talk about. But by far and away, the biggest 
question that I got was, what the heck are you doing starting a 
company manufacturing parts in America? And that is a travesty, 
you know?
    As John made reference to, I believe in the American Dream 
as well. I believe in the spirit of America. Now is the time 
for us to really reassert our dominance as a manufacturing 
powerhouse that we once were. I think through Committees like 
this, and through the testimony and some of the strategies and 
policies that we can talk about, that we can apply this, and 
not just for aerospace and defense companies like ours, but for 
all businesses, because it is important and it needs to be a 
priority.
    When you talk about the working capital challenges, the 
government has done some significant things. They have 
introduced the Jobs Act. This was a very important piece of 
legislation for us raising capital, articulating the message 
that we have as an organization to grow, and making it a 
successful vehicle for us to accomplish.
    The human capital challenge is by far and away the biggest 
one. People come to our facilities and they say, what is your 
biggest struggle? Is it the machine tools? Is it the 
facilities? No, it is finding good, qualified people. They do 
not exist anymore in the numbers that they once have, and it is 
a sad state of affairs right now.
    I have to say, for as great of a country that we are with 
regards to media, we do a horrible job demonizing manufacturing 
these days. Nowadays it is the millennials that we need to 
focus on. We need to make manufacturing cool. This is where we 
found a tremendous success, really dedicating ourselves to 
institutional folks from academia. You have to showcase the 
exciting aspects of manufacturing, because it is exciting. 
Nowadays when you walk into our facilities, it is like walking 
into a new-tech environment. There is not the dingy machine 
tools with grease everywhere. You are walking into an extension 
of the cutting-edge of technology that is exciting. When you 
watch these operators making parts nowadays, it is like 
watching a thing of beauty. There is certainly art and there is 
a lot of science behind it, and getting that message out there 
is going to be important so that we do not fall short and have 
this enormous generational gap affect our ability to remain 
competitive.
    For us, as an organization, we have had significant success 
working with veterans. We founded a nonprofit called Elite 
Veterans Initiative where we focus on not just providing 
support to these folks, and there are over 500,000 unemployed 
veterans today, I would argue the number is probably higher, 
and I would also cite that veterans in general say that finding 
a job is their biggest challenge getting out of the military. 
This is a problem for us as a nation. These are folks who are 
well trained. They have all the skillsets, the discipline, the 
honor, integrity, that makes manufacturing, and business in 
general, great. We need to embrace these individuals, and not 
just by providing support, turkey dinners, but also training 
and providing employment. We are proud to say that 10 percent 
of our workforce is veterans, and this number is growing as we 
grow.
    I would also like to shed light on some of the legislation. 
I think that traditionally, there has been a lot of focus on 
small minority disadvantaged businesses, which were very 
important, particularly in the sixties and seventies. We need 
to take a fresh look at this legislation. We need to make sure 
that it is evolving with the changing dynamics of the 
marketplace.
    I will speak from a supply chain guy for a second. To 
remain competitive, the large folks out there--the Boeings, the 
Northrop Grummans--they have to consolidate their supply 
chains. Unfortunately, as part of that consolidation effort, 
you are finding a lot of those businesses, once participants of 
the supplier diversity initiative, going out of business. I 
think we need to take another look at that. We need to not only 
empower individuals, but also companies employing these 
individuals because that is going to be a recipe for long-term 
success in my opinion. This is what I have experienced growing 
a business and struggling to do so. But we are growing. We have 
three sites in just over 2-1/2 years, and we are, again, very 
proud to be a part of the reshoring effort. The good news is, 
like I said before, we are in the midst of the second golden 
age of aviation. There is more booked, undelivered work now 
than at any time in the history of flight. The time is now, 
ladies and gentlemen, to really reassert ourselves as the 
dominant manufacturing powerhouse that America once was. Thank 
you very much.
    Chairman CHABOT. Thank you very much. I appreciate it.
    Dr. Perren, you are recognized for 5 minutes.

                    STATEMENT OF RAY PERREN

    Mr. PERREN. Good morning, Chairman Chabot, Ranking Member 
Velazquez, and members of the Committee. I appreciate the 
opportunity to come before you today to discuss the changing 
face of American manufacturing and the need to assure that we 
have a well-trained workforce. I have so much I would like to 
say, but in respect of the 5-minute rule, I am going to give 
you the Reader's Digest version.
    I think it is a given that the face of manufacturing has 
changed greatly in the last few decades. In fact, manufacturing 
has probably changed as much from the technological revolution 
as it did from the industrial revolution back in the early 
1800s. Although the face of manufacturing is changing, the 
perception of manufacturing has not changed. Too often people 
think of manufacturing jobs as being physically repetitive work 
carried out in dirty environments with little or no ability to 
use critical thinking to improve job performance. Nothing could 
be further from the truth.
    Many, if not most, of our country's manufacturers utilize 
highly technical equipment, practice lean manufacturing and 
quality philosophies that require the workplace to be clean, 
safe, and highly organized, and encourage critical thinking. 
Yes, manufacturing has changed. It is important to note that 
educational programs are also changing in order to meet the 
needs to today's manufacturers.
    Another lingering perception is that in order to be 
successful in this country, one must have a 4-year degree in a 
white collar job. While there will always be a demand for 
individuals with 4-year college degrees, the truth is that most 
of today's high-tech jobs can be filled by individuals with 2-
year degrees or shorter certificates awarded by our nation's 
technical colleges. These technical colleges are our nation's 
pipeline to assure manufacturers have the workforce needed to 
thrive in the United States. Most technical colleges are 
regionally accredited, connected to business and industry, and 
allow students to prepare for good-paying jobs and without 
accumulating large amounts of debt. And that is a real win-win.
    As has already been said here today, according to the 
National Association of Manufacturers, over 98 percent of our 
nation's 250,000 manufacturers are considered small businesses. 
Three-fourths of all manufacturers employ fewer than 20 people.
    Manufacturers are in almost every community across the 
nation. The average manufacturing worker in this country earns 
over $52,000 per year, and that is nearly $80,000 per year when 
benefits are factored in. The overwhelming majority of these 
workers participate in health insurance programs through their 
employer.
    Over the next decade, nearly 3.5 million manufacturing jobs 
will be needed. Although manufacturers provide excellent pay 
and benefits, 2 million of these nearly 3.5 million jobs are 
likely to go unfilled due to the skills gap. We have good jobs, 
and today's young people represent the brightest generation 
this country has ever raised. So what is the disconnect?
    I believe that it goes back to the perception I have 
already mentioned, that our longstanding belief that one must 
have a 4-year degree in a white collar job to achieve the 
American Dream. More discussions, such as the ones that we are 
having here today are necessary to change this perception. We 
need events to encourage this discussion, such as the 
Manufacturers Forum held by the Greater Hall Chamber of 
Commerce in Gainesville, Georgia, which bring together 
community leaders, high school administrators and counselors, 
business leaders, parents and students. We need creative 
outside-the-box solutions, such as the partnership between 
Lanier Tech, the Georgia Governor's Office of Student 
Achievement, the Hall County and Gainesville City schools, and 
Goodwill of North Georgia, which provide an alternate pathway 
to high school completion. This program has provided 
outstanding results and has allows a group of young people to 
go from being potential high school dropouts to skilled welders 
working for manufacturers such as Kubota.
    We need community involvement, as typified by the Mahalo 
spirit found at King's Hawaiian. This manufacture is so tied in 
with the community that people everywhere see the quality of 
life enjoyed by its employers.
    While I believe that local efforts are essential, I also 
believe that the Congress has a unique opportunity to support 
technical colleges and workforce development as you reauthorize 
the Carl D. Perkins Act. I also ask that you consider funding 
year-round Pell. Just as manufacturers and other employers 
never stop operations for more than a week or two, technical 
colleges operate on a year-round calendar. Manufacturers and 
businesses are looking for a steady stream of graduates, not 
just in May.
    Most importantly, I think it is the spirit that has been 
expressed here already, I think that Congress should look at 
taking lead in creating a sputnik moment for technical and 
career education. Just as the nation got behind the effort to 
become the world's leader in space exploration in the 1950s and 
'60s, this nation needs to get behind the effort to secure our 
role as the world's leading manufacturer.
    I would like to ask Congress to consider providing funds to 
improve our nation's education infrastructure. Many of our 
technical colleges were built in the 1960s, and although these 
colleges work to keep equipment up-to-date, some equipment is 
in service much too long due to lack of resources. Just as our 
nation's highways and bridges form critical transportation 
infrastructure, education infrastructure provides the pathway 
from today into the future.
    Finally, every time I come to this place I am in awe. I am 
awe of the great history of this place. I am in awe of the 
leadership that this nation has been blessed with. I am in awe 
of the work that you do every day. I ask that you be in awe of 
us. Be in awe of the amazing work that happens in our nation's 
technical colleges. Be in awe of the life-changing work we do 
in preparing young people and adults to enter the workforce 
with skillsets that are in high demand. Being that all the 
changes that we are affecting are generational in nature, 
grandchildren who are not even born today will have a better 
quality of life thanks to the work that is being done by our 
technical colleges with their grandparents today.
    In conclusion, I appreciate the time you have afforded me 
and this panel to discuss the new faces of American 
manufacturing. I ask for your help and for the help of the 
entire business and manufacturing community in ensuring our 
nation's technical colleges provide the trained workforce we 
need in order for our economy to prosper for generations to 
come. Thank you.
    Chairman CHABOT. Thank you very much.
    Ms. Glas, you are recognized for 5 minutes.

                     STATEMENET OF KIM GLAS

    Ms. GLAS. Thank you. Good morning, Chairman, Ranking 
Member, and the distinguished members of the House Small 
Business Committee. My name is Kim Glas, and I am the executive 
director of the BlueGreen Alliance, and we are a partnership of 
labor unions and environmental organizations committed to 
creating that fair economy for our manufacturing base.
    I am delighted that you are holding a hearing like this 
today, and I am really honored to be asked to participate on 
behalf of all my organizations.
    At the center of the BlueGreen Alliance work is 
strengthening American manufacturing. Driving new business and 
quality job creation across a clean energy economy. The 
BlueGreen Alliance Foundation helps to fulfill that mission 
because we directly work with manufacturers, a lot of small 
manufacturers across the country, to enter those clean energy 
economy supply chains, and providing assistance to those 
manufacturers of all sizes to participate in some of these 
emerging sectors.
    But I would be remiss to not mention some of the challenges 
that our manufacturers across this country, both small and 
large, are facing. The United States lost millions of 
manufacturing jobs between 2000 and 2014, and of the more than 
2 million jobs lost during the Great Recession of 2007 to 2009, 
less than half of those have been recovered. Lack of adequate 
resources to enforce our trade rules, currency manipulation, 
and failed trade policies all risk turning back the clock and 
further exasperating these threats to our manufacturing base. 
But while there are challenges, we do see opportunity. Domestic 
and global markets for energy efficiency, renewable energy, 
clean transportation, and infrastructure are growing, and our 
small and medium-size companies that we are working with are 
looking at those opportunities to grow their business here at 
home.
    Here is an example. As part of our larger national 
initiative, we have been working on a housing initiative 
regarding retrofitting low-income housing across this country. 
There is a transformation in retrofitting low-income housing. 
We have identified more than 1,000 U.S. manufacturers and 
distributors of products ranging from insulation, to energy 
efficiency lighting, to HVAC systems, looking for opportunities 
to grow in the United States and globally. Industrial 
manufacturers of all sizes are already are investing in energy 
efficiency and to help keep down their costs, but an additional 
15 to 30 percent reduction over all energy consumption can be 
achieved through further deployment of industrial energy 
efficiency with onsite renewable technologies, and if we are 
taking advantage of some of these efficiencies, that creates 
opportunities for small and medium-size manufacturers to make 
those technologies here at home and making our businesses much 
more globally competitive.
    Public infrastructure projects utilize significant 
financial resources, whether it is building bridges, tunnels, 
or transit systems. When you use inputs sourced from countries 
with weak environmental or labor standards, that has long-
lasting implications, not only on our workforce here but with 
higher greenhouse gas emissions, toxic air emissions, and 
potential impacts to the safety and the reliability of the 
materials used for public infrastructure. We believe strong 
procurement standards--Buy America, Buy Clean--for publicly-
financed infrastructure projects will help make sure that these 
projects are more domestically sourced and provide enhanced 
opportunities for smaller U.S. manufacturers to break in and 
further grow their businesses.
    Finally, the automotive industry has regained its 
competitive position globally and brought back over 250,000 
direct manufacturing jobs building new and more fuel-efficient 
vehicles, advanced auto components, and innovative materials, 
and it is critical that we continue the growth of advanced 
automotive manufacturing, and a lot of small, medium-sized 
businesses are seizing those opportunities.
    But to further seize the opportunity to grow these quality 
jobs, we need to prioritize key policies and investments.
    First, our companies are looking for market certainty. 
Manufacturers across the energy sector depend on policy 
leadership and consistency to create the climate for a robust, 
private investment in these promising, yet emerging fields.
    Second, additional investment is needed to bring more 
energy and transportation infrastructure up to the level needed 
to support our country and the global economy.
    Third, we need to look at forward-leaning standards, 
procurement policies, to spur adoption of clean and efficient 
technologies and encourage investments to deploy advanced 
energy, transportation, and infrastructure, and to manufacture 
these technologies in America.
    Fourth, it is important to provide technical assistance to 
small manufacturers looking to enter the market. That one-on-
one support is absolutely critical.
    And finally, the energy workforce is aging. It is critical 
we utilize established apprentice and other training programs 
to ensure all manufacturers, regardless of size, have skilled 
applicants for the jobs that they are looking to fill.
    I really appreciate the opportunity and your support and 
your work around small business, and thank you for the 
opportunity to appear here at today's hearing.
    Chairman CHABOT. Thank you very much. We will now have 5 
minutes to ask questions, and I will begin with myself.
    Mr. Ratzenberger, you had mentioned, when you were making 
the Made in America series, the story about the gentleman that 
if the machine broke down there really was not anybody here to 
fix it so he would have things shut down for weeks and bring 
somebody in from Europe or somewhere else. Were there any other 
stories of that nature that you think we could learn from 
experiences that you had while making that series?
    Mr. RATZENBERGER. Even recently to that point, I was in the 
airport, in Kennedy, and a fellow came up to me and thanked me 
for my work in promoting jobs and skills training. I asked him 
what he did, and he said he made tanks for compressed air. I 
said, where are you off to? He said he was going to Argentina 
to hire welders. He said he had jobs for 30 welders to start 
tomorrow. He was flying to Argentina to find them. That, more 
than anything, I find nationwide. People come and say, look, I 
could use 10 welders. We are talking salaries $65,000 and up. 
Some welders are making $100,000 a year in very specialized 
welding. But people are desperate for those jobs. Employers 
cannot find them. They do not exist anymore because the ones 
that still work are working, they are making good money, and 
they do not want to uproot their families and move to another 
state. There is no reason.
    Chairman CHABOT. Absolutely. Thank you.
    Mr. Tillman, let me turn to you. A topic our Committee has 
examined extensively is the cost of Federal regulation and how 
that cost is borne by various segments of the economy. Research 
has found that manufacturers pay nearly $20,000 per employee 
per year on average to comply with Federal regulations, or 
nearly double the $10,000 per employee that is borne by other 
firms as a whole. Manufacturers' costs are much higher. How 
much of a factor do you believe that things like this, the 
regulations that businesses have to deal with every year, and 
those are increasing, how much is that related to firms in this 
country to say, well, I am heading to Mexico, or I am heading 
to China or elsewhere to do business there because regulations 
are a lot less?
    Mr. TILLMAN. It is a determining factor. I think it is 
different state to state, obviously. We are a company that has 
a presence not only in California, but also in Washington 
State. Absolutely, it plays heavily on where we decide to 
expand to. We have big growth initiatives. We would like to 
expand to most states within the domestic economy located near 
some of these hot centers of aviation activity, and there is a 
lot of stuff going on right now. It certainly needs to be 
relooked at. The fact of the matter is it is inevitable that 
folks, in order to stay alive, are being subject to some 
extremely competitive pressures now to keep doing what they are 
doing. The more regulations that continue to weigh them down, 
it is not that they want to; they are absolutely, as a 
necessity, forced to. That is something that we do not want to 
see happen, certainly. We have had to fight, and fight, and 
fight, to stay competitive in the state of California. And 
while we have done it, it certainly does not hurt having 
regulations that really foster and incentivize wanting to stay 
there.
    Chairman CHABOT. Thank you. I have only a little more than 
a minute to go.
    Dr. Perren, Mr. Ratzenberger had talked about the 30 
welders that somebody was going all the way to Argentina to 
get, and I have heard similar stories to that and other things 
which we are not training people anymore. You still have 5 
percent, approximately, of Americans that are unemployed, which 
is probably double that if you really look at the people who 
have given up looking for a job and they are no longer counted 
in those statistics, or people that are working part-time that 
used to be working full-time, or people that are underemployed. 
They have the qualifications to work, and ought to be earning a 
lot more but they are working at a fast food industry job or 
something, and that is honorable work, but oftentimes that is 
work you might want to start out and then move up. But what 
ought we be doing in the education system to deal with those 
types of things? What are we not doing now that we ought to be 
doing?
    Mr. PERREN. A couple things come to mind. First of all, 
reintroducing career technical education programs at a stronger 
level at the high schools. Even though they are strong in many 
of our communities, affording high school students to begin 
welding, even in middle school learn how to do basic welding. 
Our technical college, we are limited only by our physical 
space in terms of the number of welders that we can turn out. 
Every welding booth we have is full, and we have the same issue 
in our community. Kubota is expanding their manufacturing 
facility near Gainesville. They will be hiring 600 additional 
welders in the next 3 years. Where are they coming from? And 
again, we are at capacity now. And again, helping our K through 
12 system also continue to reenergize their vocational programs 
is important.
    Chairman CHABOT. Thank you very much. I am sorry I ran out 
of time, Ms. Glas, but my time is expired.
    The gentlelady from New York, the ranking member is 
recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you. I would like to hear from Ms. 
Glas and Dr. Perren. As more manufacturing begins to move 
towards clean and green products and technologies, education in 
these technology products and business operations must do the 
same. Are the curriculums keeping up with this move towards 
green technology?
    Mr. PERREN. All of our programs meet with industry advisory 
boards two times a year. These industry advisory boards are 
made up of employers, manufacturers. They provide us with 
guidance as to what they expect in the workplace. We do revise 
our curriculum based on what our employers are telling us. We 
also introduce green equipment and other equipment that is used 
in the workplace based on what our employers tell us from those 
biannual meetings.
    Ms. VELAZQUEZ. Ms. Glas?
    Ms. GLAS. I will just note that I have building and 
construction trades as part of the BlueGreen Alliance, 
including the plumbers and pipefitters where those welding 
skills are needed, and their apprenticeship programs are wildly 
popular. They have done major recruitment efforts to ensure 
that that next generation workforce is learning the skillsets 
necessary for that clean energy economy and learning that 
skillset that when they are doing the work, that it is 
qualified work, that it is certified to meet the standards, 
that it is delivering what that work should be. So we are very 
excited about some of the work, and I think there are more 
opportunities for apprenticeship programs like the building and 
construction trade apprenticeship programs to work even further 
with technical colleges to ensure we are all pulling in the 
same direction.
    Ms. VELAZQUEZ. Thank you. Mr. Tillman, manufacturing in my 
district is alive and growing. The problem that we are facing 
is the lack of space. As more manufacturing work moves towards 
automation, workers need advanced education to operate the 
machinery that produces highly technical goods, like computers 
and aerospace parts. These jobs also command higher pay, 
helping more families live the American Dream. Do you feel your 
employees are adequately trained, or must you invest in 
training and education upon hiring them?
    Mr. TILLMAN. Yeah, we have taken a very aggressive stance 
on human capital. Again, we are in the people business. We work 
with a lot of local technical schools, which is something that 
not a lot of manufacturers do. We bring in training programs 
into our facilities if they are not offered, in terms of 
apprenticeship and things like this. We have a pretty robust 
human capital management training program. I think in general, 
as automation becomes--which is the trend certainly that it is 
going, these environments, they need to foster innovation. They 
need to embrace it. I think oftentimes with traditional 
manufacturers, they are possessing a lot of antiquated 
technologies. You do not see a lot of reinvestment, and it 
certainly prohibits them with the aging workforce. If you have 
a lot of people trained on previous generations of technology, 
it is not so easy to embrace these new practices. I think you 
have to get in front of it. We are certainly doing that.
    Ms. VELAZQUEZ. Do you have any recommendations as to what 
we can do at the state and federal level to provide the kind of 
incentives or the kind of support that you need? Because I can 
believe that that could be very costly.
    Mr. TILLMAN. Absolutely. Certainly, we would like to see 
more incentives for us to go that extra mile and ensure that we 
are, again, it is an ultracompetitive environment out there, 
and organizations have to be incentivized to want to go the 
extra mile. We would like to see more work done at the academic 
level as well, and not just at the technical school level, but 
even before that. K through 12, this is the time.
    Ms. VELAZQUEZ. Do you sell your products abroad?
    Mr. TILLMAN. We do not currently.
    Ms. VELAZQUEZ. You do not?
    Mr. TILLMAN. No, we do not currently.
    Ms. VELAZQUEZ. I yield back.
    Chairman CHABOT. The gentlelady yields back.
    The gentleman from New York, Mr. Hanna, who is the Chairman 
of the Subcommittee on Contracting and Workforce is recognized 
for 5 minutes.
    Mr. HANNA. Pell grants. You could not be more correct. They 
ought to be year-round, and there is a conversation ongoing 
about that.
    Interesting, Mr. Ratzenberger, I asked my wife why she 
married me, and it is because I do not watch TV, I do average 
plumbing, average electrical work, and I am an okay carpenter. 
That is her short list. But there is something strange about 
this conversation, and I say that because there is also 
something insidious about it which Mr. Ratzenberger sort of 
alluded to. Correct me if I am wrong, but we discouraged years 
ago the very thing that we are missing today. Now, one would 
naturally think that the laws of supply and demand would fix 
all these problems that we are talking about, right, but 
clearly, they have not. In my own community, there are a few 
hundred jobs that we know of, maybe a couple thousand, that is 
defined as the skills gap, and yet you would say that where 
there is a vacuum, labor flows in. But it is not happening. I 
am interested to hear what you said. It is because we 
discouraged people from going into the trades. I have Ms. Glas, 
35 years in the operating engineers. That is what I did. That 
is how I made a living. They are great ways to make a living, 
but we told people that was not good enough. Somehow that was 
not appropriate if you wanted to, whatever it was, do. Now we 
find ourselves in a place where we are short of jobs for the 
very reason we thought we would not be. At the same time, we 
have this enormously costly 4-year educational process.
    Mr. Perren, you talked about 2-year trade schools that 
prepare you for a lifetime of jobs, and we know that most 
people change jobs--it used to be once, now it is seven or 
eight times. It is disturbing to think that something so 
valuable at any point in our history was diminished, but Mr. 
Ratzenberger, what do you think about that? How did we get to 
place where we--this may be a philosophical question, too.
    Mr. RATZENBERGER. Sometimes I joke around saying it was my 
fault because I was a carpenter and I helped build the stage at 
Woodstock. It was right around then that the perception shifted 
where we started honoring mediocrity instead of success. It 
flipped the whole idea of what it is to be a success right on 
its head. That seeped into the school system. Certainly, the 
media, because now, instead of--and I always use the Beatles 
song. Forgive me, you Beatles fans out there, but Lucy in the 
Sky with Diamonds. Picture yourself in a boat down the river, 
with tangerine trees and marmalade skies. So it is lionizing 
the people who do drugs and have hallucinations floating down 
the river, but my question always was, who built that boat? The 
boat is the key factor. Someone with a work ethic, someone with 
skills built the boat so you could do nothing. I think the 
media, especially, anytime it depicted someone with tools who 
knew what they were doing, somehow they were either the villain 
or depicted as stupid. Why would a child growing up, looking at 
that, want to be that? I even think, I go so far as to say we 
should change that term ``blue collar worker'' to essential 
worker, because if they all went home, did not show up to work 
tomorrow, we would screech to a halt.
    We can do without actors and sports celebrities. Only our 
families would miss us if we disappeared. Society would go on 
just fine, seamlessly. Imagine if all the truck drivers pulled 
off to the side of the road and said, nah, we are not going to 
work today. These are the people that should be honored in the 
media, certainly in commerce. My mother worked in a factory, 
too, and when I picked her up late at night, the 3 to 11 shift, 
and I thought there should be an audience here applauding these 
people because this job and these people are what keeps us 
going. I am icing on the cake, you know, and that is my 
favorite part of the cake.
    Mr. HANNA. To Ms. Glas, that is why I have always supported 
Davis-Bacon. What is wrong--Davis-Bacon is parody. You know who 
it is. What is wrong with making $70,000 to $100,000 with 
benefits? When you walk around the capitol here, people are a 
lot of things, but the thing that strikes me is the 
construction. The actual building, the physical presence of 
what we see here and the talent that went behind it. It is 
quite amazing. It is. It makes you feel bad, does it not? What 
we have come to is we need to be a society now because the 
world is so competitive and the world is leveling that it is 
those value-added products through higher education, more 
complex, more intellectual capital, like Elite, that will 
actually make us competitive with the world to sell those 
things that we cannot make here because they do not pay well 
and they can be done someplace else. But now we are in a 
position where we have to say we need to educate ourselves 
better, compete better, and as I said, make value-added 
products.
    My time is expired, thank you, Chairman.
    Chairman CHABOT. Thank you very much. The chair will note 
for the record, I think that is the first time in, at least my 
20 years, that we have heard a Lucy in the Sky with Diamonds 
quote here in this Committee. We thank you for that.
    The gentlelady from California, Ms. Chu, who is the Ranking 
Member of the Economic Growth, Tax, and Capital Access 
Subcommittee is recognized for 5 minutes.
    Ms. CHU. Thank you, Mr. Chair.
    Ms. Glas, my state of California is home to the largest 
manufacturing base in the country, and, it has some of the 
strongest carbon reduction policies in the nation. In fact, 
California is responsible for about 11 percent of the nation's 
manufacturing production. Can you tell us about how Federal and 
state governments can encourage industry growth to ensure that 
the clean energy economy is developing good manufacturing jobs 
in the U.S.?
    Ms. GLAS. I think the state and Federal policy plays a key 
role in contributing to how and whether manufacturers continue 
to grow. California has been a leader across the country on 
environmental policies to help spur that sort of next 
generation of investments. I would caution, though, that there 
are some big industrial manufacturers who are producing 
products in California and on the West Coast that are producing 
aluminum or steel products, steel inputs that go into some of 
that next generation product. You want to ensure that we are 
sourcing those products here in the United States where it is 
less carbon intensive. Importing steel from China is two to 
three times more carbon intensive. How do we ensure the full 
value of the benefits for the clean energy manufacturing 
economy go from the raw material producer all the way through 
the chain? The state and the Federal government have a lot to 
do with whether manufacturing in this sector will grow and 
really seize the opportunities that lie ahead.
    Ms. CHU. How about some of these tax credits? For instance, 
how has the long-term extension of the production tax credit 
and the investment tax credit impacted clean energy 
manufacturers?
    Ms. GLAS. They have been enormously helpful in ensuring 
that these industries see a longevity and making sure that they 
are cost competitive with those companies that are importing 
product. I will say that because there has been uncertain 
around those tax credits in the past, a lot of companies have 
been hesitant to make the investments that they wanted to make 
in the sector. I really appreciate Congress moving forward on 
that. I think that was a significant leap ahead. But markets 
demand certainty, and so I would continue encouraging this type 
of thinking of how to get to the next generation technologies.
    Ms. CHU. The research and development tax credit was made 
permanent. How could this R&D credit be made to be more 
business friendly?
    Ms. GLAS. I think that was a wonderful step forward. A lot 
of this work actually happens on the ground level of 
manufacturers talking to technical colleges, talking with 
apprenticeship programs. There is a lot more fostering and 
convening that needs to happen locally to ensure that next 
generation workforce is in the pipeline and that manufacturing 
is a career opportunity that everyone wants to be a part of 
because it is part of the gateway to the middle class.
    Ms. CHU. Mr. Tillman, I enjoyed your story on reshoring 
which is when a company shifts manufacturing back to the U.S., 
jobs are not only created at the new factory but at many 
surrounding business, like parts suppliers, restaurants, and 
real estate agents. Can you elaborate on this secondary 
economic impact of reshoring manufacturing?
    Mr. TILLMAN. Absolutely, we have seen that as well. 
Bringing jobs back from a manufacturing perspective, certainly 
in the aerospace and defense industry supply chain, there is 
quite an extensive supply chain. We have seen elements of that 
locally for us, even within the southern California region. 
That is all part of the effort. Again, we speak about the 
successes we have, but moreover, it is about the success of 
America, and that is why we are here. If we can see more of 
that in general, not only in California but throughout the rest 
of the U.S. economy, you are going to see the multiplier effect 
of that. We are going to do our part, and obviously, we are 
here to ensure that Congress is doing their part. But again, I 
think together we are going to get there. The momentum has 
changed. Reshoring is here to stay. We are doing a better job 
at getting the message out there to local schools. We need to 
continue that. This needs to be an ongoing effort. Again, now 
is the time to do it because there are so many opportunities 
out there.
    Ms. CHU. Anyone else on the panel?
    How could we invent, incentivize, and increase in the 
purchases made by large businesses from small business 
suppliers and reshoring? Is there a way we could do that?
    Mr. TILLMAN. With regards to incentivizing for raw material 
product, I think Ms. Glas spoke to it. From parts that we 
manufacture, there is a value stream to that, and it begins 
with raw material production. Emphasizing production in the 
United States would be a huge benefit to this initiative, in my 
opinion. I think clarity with regards to some of the policy. I 
know, as Ms. Glas mentioned, there is a lot of leaps forward, 
and I think we need to encourage that. After the legislation is 
put into place, let's take the next steps and really get at the 
ground floor and see how that legislation is affecting tactical 
business management and strategy. Once we do so, I think it is 
going to shed light on some other opportunities there. 
Clarification within that legislation. Making it aware. We as a 
company, obviously seek these sorts of things, and oftentimes, 
it is not terribly accessible to us, so more broad education on 
how these policies affect local businesses would be 
tremendously helpful.
    Chairman CHABOT. Thank you.
    Ms. CHU. Thank you.
    Chairman CHABOT. The gentlelady's time is expired.
    The gentleman from Nevada, Mr. Hardy, who is the Chairman 
of the Subcommittee on Investigations, Oversight, and 
Regulations, is recognized for 5 minutes.
    Mr. HARDY. I would like to thank you all for being here. I 
think it is an informative discussion we are having here. Mr. 
Ratzenberger, you hit right on what I have always believed. I 
grew up as a fifth generation son of farmer ranchers, and we 
could hold just about anything together with a baling wire and 
duct tape to make things keep moving. Through that process, I 
went to college for 1 year, and that year of college, the first 
thing that was taught to me by my aide was to make sure I get 
an academic education because the trades and everything are 
going out of style.
    Mr. Perren, do you believe that is part of maybe the 
problem; that academia has pushed so hard to make everybody get 
a college education that they have looked down on the trades as 
being a viable opportunity to raise a family?
    Mr. PERREN. It goes back to some comments I made that the 
perception of success in this country tends to be tied to a 4-
year degree, and the trades do not tend to be in that career 
path or that education path.
    Yes, there is a perception that everyone wants their son 
and daughter to graduate from a 4-year institution, and there 
is nothing wrong with that. Most everyone in this room did 
that. Absolutely nothing wrong with that, but not at the 
expense of keeping others from going into areas where they are 
passionate. There are so many kids that if they had the ability 
to use their hands, if they even knew what they could do with 
their hands, if they were exposed to career explorations where 
they know what the careers are that are available to them, they 
could follow their passions and go into the trades and view 
these things as not something you do if you cannot go to 
college, but something you do because you are following your 
heart. You are following your dreams and you are doing what you 
are wired to do.
    Mr. HARDY. One of the issues that has really been 
frustrating for me, I think Mr. Ratzenberger, you brought it 
up, but 35 years ago the schools changed. When I grew up, we 
had auto body. We had shop. We had welding. We had all these 
opportunities to do certain things. You can learn trades, but 
you also have to learn work ethic, and I believe you brought 
that up.
    In our state of Nevada, we saw that shift almost 40 years 
ago, when I graduated, where these were leaving. Now, it is 
starting to come back but it is coming at a different level 
which is higher tech, but it has to do with the drones and 
building robotics. But these youth have to get involved. It is 
not part of academia. It is something they do on the side, and 
the trades are providing opportunity for these youth to come 
out and learn how to build something with their hands with 
fancy machines and everything else that is donated by society. 
Do we need to invest more in our high school education to 
prepare people for going into college, in your opinion?
    Mr. RATZENBERGER. I think we should be investing in the 
grammar schools. Every innovator, from Leonardo da Vinci, 
Benjamin Franklin, Thomas Edison, Steve Jobs, started as a 
child tinkering. I knew Steve Jobs, and we would talk about 
that. He loved working on car engines with his dad. Thomas 
Edison had 3 months of formal educatin--3 months. That is it. 
He hung around a boatyard and learned how to do things. 
Leonardo da Vinci was an illegitimate child, he grew up on a 
farm. You have to get them when they are young, tinkering and 
making things. Old cardboard boxes. My mother, God bless her, 
she used to get old radios from garage sales and cut off the 
cord and just say, here, take it apart. I have been a tinker 
and an inventor ever since. Putting things together, taking 
things apart. That is all you have to do with a child. It is 
very cheap, too.
    But you have to start young. Thomas Edison never went to a 
school and said, I want to learn how to invent a lightbulb. It 
all happened in here when he was very young. So my 
recommendation is start at the younger ages, K through 12, as 
Dustin mentioned. That is where it needs to start. Once they 
are in high school they are already set. They have their likes, 
dislikes, their priorities. Certainly, by college, it is gone.
    I sit on the board of a university and I am always joking, 
and say to the president, every year before we give them their 
degrees, they should be required to go out to the parking lot 
and change the tire on their car. If you cannot do that, what 
good is your degree? You do not have enough common sense to do 
that? But I also joke and I say, before anybody can be sworn 
in, any elected official, you should be required to assemble a 
coffee table from IKEA. I mean, that is tough.
    Chairman CHABOT. Now you are hitting too close to home.
    Mr. RATZENBERGER. Well, I know you farm boys can.
    Mr. HARDY. My time is expired. I just want to tell you, Mr. 
Tillman, thank you for lunch last night, or dinner last night. 
No, he did not buy me dinner.
    Mr. RATZENBERGER. Good restaurant, too.
    Chairman CHABOT. The gentleman's time is expired.
    The gentleman from Mississippi, Mr. Kelly, is recognized 
for 5 minutes.
    Mr. KELLY. Thank you, Mr. Chairman, and thank all you 
witnesses. It is so important, and I have a very--my district 
has a lot of manufacturing and a lot of agriculture, and I 
would say in Mississippi, my part of the district, even though 
it is rural, most of the manufacturing that is coming there 
right now, it is coming because of workforce. We have a very 
skilled workforce that is getting better every day. We also 
have water and rail and energy and all those things that are 
important, as well as a workforce. We have a community college 
system in Mississippi that is still pretty good, and I think it 
is one of the best in the nation. It is one of those things 
that I think we should thump our chest about.
    It is often funny. We have people who come to manufacturing 
jobs in Mississippi and they come kicking and screaming, 
telling their folks, I cannot believe I have to go to 
Mississippi. Do you know what the problem with that is? They 
never want to go back. They want to stay because of the people 
and the things that are so great there.
    Veterans are also very good in my heart. I have served a 
long time. I know you have veterans that work for you, but we 
talk about certificates of skill or journeyman's license or 
professional trade associations. What are we doing to recognize 
those skills that these soldiers, sailors, airmen, and 
marines--because we have heavy equipment operators, welders, 
carpenters, mechanics, all of these things--are there anything 
in the civilian side or Small Business Administration that 
recognizes or certifies these guys coming off active duty or 
reserve component who have on-the-job training that is not 
necessarily recognized in the civilian side? Does anybody know, 
and specifically, Mr. Tillman?
    Mr. TILLMAN. It is actually interesting. I was at Northrop 
Grumman, the global headquarters, earlier this week, and the 
woman that I was meeting with is a veteran. She was saying a 
big part of the problem that exists is interpreting a military 
resume, which has a lot of the same fundamental attributes that 
normal college resumes have but it is written differently, and 
there are different skillsets that are emphasized. She brought 
that to light because she is a veteran, she is able to, and 
oftentimes on a hiring committee say, no, that is actually what 
we are looking for, it is just called something else. I think, 
in general, businesses need to be more equipped on that. That 
is going to happen inevitably if you are hiring more veterans 
because you are going to be embracing that skillset and just 
the knowledge and know-how that goes into interpreting it. The 
reality is, again, it is quite a travesty when veterans cite 
finding a job as the hardest thing. As they retire from active 
military, as they are entered into the job force, companies 
need to be incentivized. Again, not because it is not something 
that they want to do; it is just so competitive out there that 
there has to be an overwhelming desire for them to go the extra 
mile. When we have done it, it has been very successful. And 
introducing training programs, like I said, these are the folks 
that we need to, and it is a cultural thing. A lot of active 
military that are retiring now are millennials, they do fall 
into that 18-to-34 category.
    Another part of that question made me think about what we 
hear a lot, which is the sort of Google myth that you have to 
have sleeping pods in order to make employment exciting, and 
that is not the case. A sense of belonging. A sense of 
community. Listening. Empowering them to be successful, giving 
them a voice. This is really what they want ultimately. If we 
can work towards creating that culture, you are going to have a 
higher success rate, whether it is veterans or any other 
millennials, or people even before that.
    Mr. KELLY. Mr. Chairman, that is one of the things. There 
are so many skillsets. First of all, people who come out of the 
military generally are very humble and do not inflate their 
resumes with the things that they are capable of doing, unlike 
a lot of kids who come straight out of college. They are trying 
to turn certain leadership positions into doing these great 
things, and these kids in the Army are coming out, and Navy and 
Air Force, and they are coming out with great leadership skills 
that do not show up on their resumes.
    So, one, we need to teach these guys how to write about 
their skills. Two, I think we really need to look at a civilian 
equivalency skillsets to go with all MOSs and all the military 
services, because you have airplane mechanics and helicopter 
mechanics. Even in our signal and intelligence scores, these 
guys are dealing with cutting-edge technology that you guys 
have not seen yet. Fortunately, I have been exposed to that, 
but these kids are way ahead in technology but it is a hard job 
to transition that from the military to the civilian skillset. 
So I really hope you guys will think about ways that we can 
highlight these skills and make sure. I apologize, I only have 
8 seconds left, but I yield back. Please think about ways we 
can take care of our service members and use their skills to 
maintain our role as the greatest manufacturer in the world. I 
yield back.
    Chairman CHABOT. Thank you. Thank you. The gentleman yields 
back.
    The ranking member is recognized for the purpose of asking 
questions.
    Ms. VELAZQUEZ. Yes, just one question. Dr. Perren, and Ms. 
Glas, and even Mr. Tillman. How can we get more young girls and 
women interested in order to change the mindset that the trades 
are not for girls or women?
    Ms. GLAS. This might get to Mr. Ratzenberger's comments 
about sort of tinkering and learning early. As a woman who has 
devoted her entire career to growing the manufacturing base, I 
do not recall a single time in elementary school or in high 
school where a guidance counselor or career counselor ever 
said, have you considered going into manufacturing? Do you know 
what manufacturing today looks like? Because it is a lot more 
innovative. It is not your mom and dad's manufacturing anymore. 
It is very lean. It is very automated. It takes high skills in 
terms of engineering skills, math skills, and science skills.
    Personally, I think women do not fully understand or 
appreciate the type of employment and how it can be a family-
sustaining wage. There is a gap. There is a gender gap in the 
building and construction trades. There is no doubt about that. 
But I think----
    Ms. VELAZQUEZ. And even when you look at STEM.
    Ms. GLAS. Yep.
    Ms. VELAZQUEZ. Right? And the national focus on it. When 
you look at the numbers, you see a great gap when it comes to 
women.
    Ms. GLAS. Completely. It is something that I do not know, 
exactly how to bridge that gap. A lot of people have been 
thinking about ways to do that, but I think earlier on in the 
school age, women need to be shown that there are possibilities 
in this sector. What these sectors are about. What are the 
types of jobs in these sectors? What is the income level of 
these sectors? To get people more talking about the fact that 
they want to be part of a manufacturing skilled training 
future.
    Mr. PERREN. We also encourage nontraditional learners. 
Whether it is women going into welding, air conditioning, and 
also, men going into nursing or whatever. We encourage 
nontraditional learners to try to bridge that gender gap. We 
actively encourage that.
    If I may address the gentleman from Mississippi's 
statement, returning military veterans, when they bring their 
MOSs to us, we evaluate that, and we actually give them course 
credit based on the service work that they did in the military, 
so they can actually earn significant course credit when they 
return from service towards a degree at colleges all across 
this nation. We are trying to recognize the tremendous skills 
that they have learned while they were in the military.
    Chairman CHABOT. Thank you. Did you want to comment, Mr. 
Tillman?
    Ms. VELAZQUEZ. I yield back.
    Chairman CHABOT. You yield back?
    Mr. TILLMAN. The only comment that I would have is I think 
it is a curriculum issue. I think there is a certain social 
level of acceptability in schools. John spoke a lot about 
solving the problem by bringing shop classes back, and that is, 
by and large, a lot of it. I think kids in general--I have 
children--they are encouraged to do more traditional things. I 
think if you make that more acceptable in general at the lower 
level, K through 12 area, they will not feel so awkward by 
pursuing a nontraditional pathway because the reality is it 
absolutely is misinformation. As Dr. Perren was referring, we 
have very high-paying jobs, and as a manufacturing company, we 
maybe see 1 in 1,000 women who apply because it is such a 
rarity. We would love to encourage more of that.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    Before wrapping up, we will check with the gentlelady, but 
Mr. Ratzenberger, did you want to comment on kind of the role 
of women as you have seen in manufacturing? I think you 
mentioned your own daughter?
    Mr. RATZENBERGER. Oh, my daughter is a great carpenter. She 
is a producer in Hollywood, but she had her own toolbox all 
through college.
    In addressing that, I talked to a retired commandant at 
West Point, and I said, where do the best officers come from? 
Without skipping a beat he said farms. Boys and girls. I said, 
why is that? He said because they are always problem solving 
from a very young age. Instantly they have to deal with it, as 
you well know. If we reinstate those manual training classes in 
school, the children, the boys and the girls who do not have 
the advantage of growing up on a farm, they have the advantage 
of putting their hands to physical things and problem solve. 
The brain is formed between birth and 3 years old; 5 years old, 
maybe. So that is the age you have to get kids interested, and 
they can mold the world around them to their liking. You do not 
let the world mold you; you mold the world. You take what 
natures gives you and you say, how can I make something else? 
Again, Steve Jobs, da Vinci, Thomas Edison, it all starts at a 
very young age. So boys or girls, it does not make a difference 
at all.
    Chairman CHABOT. Very good. Thank you very much.
    I would like to comment as Chair, I think all four of you 
were great. Excellent panel here. There are a lot of takeaways. 
We spend a lot of money on education in this country every year 
and we need a highly trained and skilled workforce for jobs 
that are now going unfilled and that we have to seek people in 
Argentina to do our welding. I mean, it is incredible. I think 
you have given us a lot to think about here as members of the 
Small Business Committee. As we have said, 99 percent of the 
manufacturers are small business folks, so this was right in 
our sweet spot. Thank you very much for sharing your 
experiences with us. We will share it with our colleagues, not 
only on this Committee but other Committees in Congress as 
well.
    I will ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    Mr. RATZENBERGER. Thank you.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]
                            
                            
                            A P P E N D I X


               House Committee on Small Business

        Presented by John D. Ratzenberger - May 12, 2016

    This great country of ours, this land we call the United 
States of America was founded and nurtured on 2 basic guiding 
principles: Freedom and the Ability to use that freedom to 
build the finest civilization yet seen on earth.

    We built this nation guided by our imaginations and the 
skills we learned from our elders. We cut our own timber with 
saws we made ourselves from the ore we mined using tools that 
we machined and honed on machines that we built from scratch 
with our own hands. We drew, measured and shaped the tools we 
needed to build our homes and the villages towns and cities in 
which we lived. We travelled from place to place in vehicles we 
built and maintained ourselves to harness the pulling power of 
the livestock given to our use and care. We used our own hands 
to build the barns, fences, and corrals that kept our animals 
protected so that we could feed our families with food we grew 
ourselves in fields plowed with more tools that we designed and 
proudly crafted.

    We were always a nation of builders, tinkerers and 
craftsman that met each and every task and challenge with 
hands-on skills that were passed from generation to generation. 
We built our own ships that gave birth to the United States 
Navy. The same ships that fought the Barbary pirates off the 
coast of North Africa when Thomas Jefferson was President. We 
used the same time honored skills to construct the battleships 
and landing craft that were necessary for our victories on D-
Day as we pushed the Nazi nightmare back and extinguished the 
flame of evil so that our children could live in peace. We made 
every one of the weapons carried by our brave men and women 
throughout our history to protect the place we call home.

    With our own hands, we designed and constructed a rocket 
ships that landed us on the moon and launched the satellites 
that transmit our cell phone signals from one place to the 
next. We used our hands to construct medical equipment that 
have saved millions of lives worldwide. Make no mistake, we are 
the peacekeepers of the world because of our manufacturing 
might. Manufacturing is to America what spinach is to Popeye.

    While future generations may have to explain that analogy, 
we in the year 2016 understand that without tinkerers, 
builders, and manufacturing throughout the land, we are 
rendered spineless and helpless. Manufacturing is the backbone 
of Western Civilization. Everything we do every single day is 
reliant first on someone's ability to not only put a nut and a 
bolt together but to make that nut and that bolt in the first 
place. I have always known these truths to be self evident 
because I grew up in the once mighty industrial town of 
Bridgeport Connecticut surrounded by people who knew how to 
design, make, build, fashion, repair and maintain anything you 
wanted. My uncles proudly boasted about their ability to hone a 
piece of metal down to 1/5000th of an inch tolerance as though 
the fate of western civilization rested on it. As a ten year 
old, I thought it was funny but as I got older and a tad more 
sophisticated, I realized that my uncles were right. The fate 
of Western Civilization rests entirely on our ability to make 
things. The world would get along just fine without actors, 
reality stars, musicians and sports celebrities. Our loved ones 
would be sad but the world would continue to hum along 
seamlessly. Think, however, what would happen if all the 
skilled trades people from carpenters and plumbers to farmers 
and truck drivers decided not to show up for work tomorrow. We, 
the entire nation, would instantly grind to a halt causing 
problems that would take generations to overcome.

    So why then have we stopped teaching our children the joys 
of crafting something out of nothing? About fifteen years ago 
while visiting a number of factories and filming the different 
ways companies make things for my TV show ``John Ratzenberger's 
Made in America'', I realized that there were hardly any 
workers under the age of forty in any of the facilities. After 
talking with dozens of CEOs and plant foreman in every state, I 
was made aware of the fact that nationwide, the manual arts, 
that is: wood shop, metal shop, auto repair and even home 
economics were taken out of the middle and high school 
curriculums about 35 years ago. Not only did that result in a 
dropout rate back then of 30 percent instantly but it left us 
with a skilled essential workforce whose average age today is 
58 years old.

    There are close to a million jobs available right now in 
small businesses around the country that rely on people with 
mechanical common sense skills that we've stopped offering in 
our public schools 2 generations ago. The most repeated 
complaint today from potential employers is that it's 
impossible to train someone for any of the jobs available when 
they graduate from high schools everywhere without the ability 
to even read inches and fractions from a simple ruler.

    The big worrisome question then is this... How do we 
reinstate the necessary programs in our schools to give our 
children a familiarity of the tools that built and maintain our 
civilization and way of life? If the average age of the people 
that keep our nation and the nation's infrastructure working is 
58 years old then how long do we have before it all stops?

    I also submit that we do away with the term ``blue collar 
worker'' and replace it with ``essential worker'' because 
that's exactly what they are. Once they are all retired then no 
more ships, buildings, trains, planes, or automobiles. No more 
tractors, no more farms, no more food unless we grow it 
ourselves in fields we plow with tools we've made with our own 
hands. That's the way it's always been and if we someday want 
to explore the universe, cure disease and marvel at what awaits 
us in the oceans depths then we'd better get busy introducing 
our youngsters to the vital art of using tools and the joy of 
self reliance. Thank you.

    John Dezso Ratzenberger
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    About Elite Aviation Products

    Good morning and thank you for inviting me to testify 
before this committee. I am Dustin Tillman speaking on behalf 
of Elite Aviation Products, Inc. as its President & CEO. 
Bringing manufacturing jobs back to America is something that 
has always been very important to use as a company. This 
process has become affectionately referred to as ``re-
shoring,'' and is a topic that has been garnering a great deal 
of attention in the mainstream media as of late. Elite Aviation 
Products is an American aerospace & defense (A&D) engineering 
and manufacturing company, and is a proud participant of the 
re-shoring movement. Elite was born through recognition that 
despite surging demand pressures in both the commercial 
aviation and A&D marketplaces, American manufacturing over the 
decades has been stifled by an overwhelming lack of investment 
in emerging technologies, a slowness to adapt business models 
with 21st century efficiencies, immense growth capital 
requirements as well as a lack of investment and prioritization 
of cross-trained workforces. By recognizing and addressing 
these issues, Elite Aviation Products has been able to quickly 
break into the Aerospace marketplace while creating domestic 
manufacturing jobs, and dispelling the myth that successful 
manufacturing in America is a thing of the past.

    However, for Elite, and many companies out there just like 
Elite, there's still a lot more work to be done so that our 
nation can reassert itself as the manufacturing powerhouse it 
once was. Many say that in our current socioeconomic 
environment, the vision that our country will be a nation of 
builders once again is all but attainable. Manufacturing 
operations tend to be one of the most capital intensive 
businesses to develop. Manufacturing requires large investments 
in real estate, machine tools, and human capital (employees) 
development and acquisition. These vast overhead costs has 
driven many corporations to take their operations abroad in 
order to improve their bottom line, and has discouraged 
countless others from attempting to venture into this space.

    Weathering the Storm--The Challenges We Face

    When starting or growing a business it's challenging enough 
to continually position oneself for success. Business can often 
times be affected by capital constraints, cyclicality, market 
uncertainty, difficulty developing and procuring proper human 
capital, change in the tastes and preferences of consumers as 
well as unfavorable or antiquated legislation.

    Encouraging Growth in the Skilled Labor Workforce & Making 
Manufacturing Exciting

    Throughout my career I was exposed to legislation whose 
intent was to protect small, minority owned, and disadvantaged 
businesses because government wanted to affect diversity 
amongst those qualified to support this work. Instead of 
creating jobs for the many, often times, over the years I've 
watched it allow very few to prosper to the detriment of those 
employees and customers who depended on these organizations for 
longer-term sustainable support. The reality is that often 
times those that fall within these parameters generally remain 
small, and are therefore unable to truly embrace the changing 
dynamics of the marketplace, which are demanding more and more 
from them. Many times, unable to evolve, these once protected 
businesses fall short and end up disqualified and out of 
business. While the intention of this legislation was 
benevolent, in my experiences it fails to achieve the desired 
growth and sustainability it set out to.

    Instead of watching history continue to repeat itself what 
would be wonderful to see is emphasis placed not just on small, 
minority owned, and disadvantaged businesses, but also small 
and midsized businesses that are capable of growing through the 
empowerment and development of all its employees, not just 
those categorized. Rather than crafting legislation that only 
incentivizes select individuals to own a business, it would be 
encouraging to see legislation that supports and rewards those 
businesses who commit themselves to training, developing, and 
employing all skilled labor.

    As a nation we also need to do a better job of accurately 
characterizing the multi-faceted and exciting careers that 
exist within manufacturing. Despite our talent as a culture for 
crafting top-notch media, we do a poor job at shining a spot 
light on the exciting and fulfilling career paths that exist 
within modern manufacturing; full of all the intricate and 
challenging dynamics that would enthrall and captivate the 
young workforce entering the job market.

    Empowering our Nation's Heroes

    For us, and many other businesses out there, the best pool 
of talent that I've been exposed to have been veterans. These 
highly trained individuals who possess key characteristics for 
success in business, e.g., honor, integrity, discipline, and 
leadership are right in our own backyards, and, from what I've 
seen, eager to get to work. Motivated to plunge into this 
untapped pool of talent, Elite Aviation Products founded the 
Elite Veterans Initiative, whose mission is to support, 
empower, and employ our Nation's heroes. What we discovered 
through this process is that often times while these 
individuals are out there keeping our borders safe they are 
unable to build their resumes, which often times is an 
important pre-requisite in the job market. Consequently, this 
often works against these individuals when they retire from 
active military and assimilate back into the marketplace. 
Because employers are not adequately incentivized to hire from 
this pool, unfortunately the net result is they pass for 
someone who has the resume that solves their immediate 
requirement.

    Capital Requirements

    As mentioned above, the amount of capital required to enter 
a marketplace like manufacturing (whether it be aerospace, 
automotive, or any other sector) is immense, particularly if a 
company is properly positioning itself for sustainable 
efficiency and long-term growth. The proper foundation of a 
modern manufacturer requires large investments in advanced 
machine tools (many small manufacturers work off slow, 
antiquated technologies and are unable to expand for this 
reason), expensive software systems, real estate, and a large 
amount of employee development and training. The amount of 
capital required and the lack of avenues to obtain this capital 
has precluded the growth and development of the workforce 
within the manufacturing sector.

    With the introduction of the JOBS Act (Jump Start Our 
Business Startups) in 2012, more businesses have been able to 
obtain the capital they needed in order to begin and expand. 
While at times a difficult and complex piece of legislation to 
navigate and full utilize, this type of legislation is a big 
step in the right direction. Without this legislation, Elite 
Aviation Products would never have been able to procure the 
capital needed purchase the advanced machine tools, technology, 
develop human capital, and acquire the real estate necessary to 
create a modern manufacturing company. Continued simplification 
and support of legislation similar to the JOBS Act is in our 
opinion one of the most crucial components in encouraging more 
Americans to start manufacturing businesses and thus create 
high quality jobs and development opportunities for many 
Americans.

    Unlimited Opportunities for Growth

    The world has entered into what's being referred to as the 
2nd Golden Age of Aviation characterized by the simultaneous 
development of entirely new fleets of aircraft by all premier 
airframe manufacturers. As such, there's more backlogged work 
now than at any other time in the history of flight, and 
visionaries and industry moguls alike are seeking to expand 
this into the cosmos. The current supply chain supporting the 
A&D industry is unable to keep up with these demand pressures, 
which has left the door wide open to the flood of new young 
talent entering the job market. With so many opportunities now 
and into the distant future it is time for America to once 
again showcase its dominance. We have a tremendous opportunity 
to get it right and make a huge impact on society.

    Call to Action

    If during this 2nd Golden Age we are to make a significant 
impact and showcase our ingenuity as a country, aggressive 
legislation to incentivize programs related to job creation and 
lowering the barriers of entry to the manufacturing industry 
must be seen.

          <bullet> Additional efforts to help place veterans 
        and disadvantaged groups in training programs or 
        positions in growing manufacturers

          <bullet> Shift in focus from diverse business owner 
        incentives, to incentives aimed at growing and 
        sustaining diverse work forces

          <bullet> Tax vehicles that incentivize reinvestment 
        in newer more efficient machine tools and other 
        technologies

          <bullet> Continued support and simplification of 
        legislation like the JOBS Act, which enable new 
        manufacturing businesses to secure growth capital and 
        create jobs

          <bullet> Incentivize companies who hire fresh talent 
        straight from trade-schools and community colleges

          <bullet> Subsidized internships for students seeking 
        career opportunities within the manufacturing sector

    Thank you again for the opportunity to participate in this 
committee hearing.
                   Testimony of D. Ray Perren, D.S.L.


                               President


               Lanier Technical College, Oakwood, Georgia


           A Unit of the Technical College System of Georgia


                 Before the Committee on Small Business


                 United States House of Representatives


              ``The New Faces of American Manufacturing''


                              May 12, 2016

    Good morning Chairman Chabot, Ranking Member Velazquez, and 
members of the committee. I appreciate the opportunity to come 
before you today to discuss the changing face of American 
manufacturing and the need to assure we have a well-trained 
workforce. My name is Ray Perren. I am the president of Lanier 
Technical College. Lanier Tech is a public two-year 
postsecondary institution within the Technical College System 
of Georgia. I am just completing my thirty-sixth year as an 
educator. I spent my first twenty years in K-12 education 
serving in roles including classroom teacher, elementary school 
principal, middle school principal, system curriculum director, 
assistant superintendent, with my last four years in K-12 spent 
as district superintendent of schools. For the last 16 years I 
have served as dean of academic affairs for a university, and 
for the last ten as a technical college president. All of these 
stops along the way have allowed me to be involved in education 
from Pre-Kindergarten through graduate programs. I have been 
fortunate to be involved in education during the time of the 
Technological Revolution.

    The New Faces of Manufacturing vs. Lingering Perceptions

    I think it is a given that the face of manufacturing has 
changed greatly in the last few decades. In fact, the 
Technological Revolution has changed the face of manufacturing 
as much in the 21st Century as did the Industrial Revolution in 
the 19th Century. In his classic work, The Wealth of Nations, 
Adam Smith identifies the factors of production as land, labor, 
and capital. The technological revolution has allowed 
manufacturers to increase productivity and profitability by 
decreasing the costs associated with labor. We've all heard the 
comments, ``Robots are going to replace humans in the 
workforce.'' Although this is a bit of an exaggeration, it is 
true that technological advances--such as robotics--allow 
manufacturers to increase productivity while managing labor 
costs. Technology allows us to produce more using less human 
labor. But technology does not and will not replace humans in 
the workforce.

    We have all heard of the concept of ``reshoring.'' 
Reshoring is where manufacturers who moved production from the 
United States in the last one-third of the 20th Century are 
bringing operations back. These operations are not returning in 
the same form in which they left. The jobs created by reshoring 
require a different skill set than the jobs lost by offshoring. 
It is no longer acceptable to simply have warm bodies in 
manufacturing settings. Today's manufacturing environment 
requires highly skilled individuals who not only understand 
complex technological applications but also are adept at 
problem solving.

    Although the face of manufacturing is changing, too often 
the perception of manufacturing has not changed. Too often, 
people think of manufacturing jobs as being physically 
repetitive work, carried out in dirty environments, with little 
or no ability to utilize critical thinking to improve job 
performance. Nothing could be further from the truth. The 
repetitive motions and monotonous tasks that would have been 
performed by workers of the past have been replaced by robotics 
and other forms of automation.

    A couple of years ago, I had the opportunity to tour the 
manufacturing facility Caterpillar had recently opened just 
outside of Athens, Georgia. I was impressed by the cleanliness 
of the work environment, the focus on teamwork, and the 
encouragement of critical thinking by all employees. In 
Gainsville, Georgia, American Yazaki Corporation has a program 
that allows workers to change work assignments every two hours. 
This reduces the possibility of repetitive motion injuries and 
provides for a very flexible workforce. These are examples of 
how manufacturers invest in and treat their workforce. All 
across this nation, the modern manufacturing environment is 
very clean and is very likely air conditioned. In fact, many if 
not most of our nation's manufacturers practice lean 
manufacturing and quality philosophies that require the 
workplace to be clean, safe and highly organized. Today's 
manufacturing jobs are well-paying. For example, graduates of 
our Industrial Systems Technology, Machine Tool Technology, and 
Welding Technology programs can expect entry level wages of 
$35,000 to $45,000 annually. Wages for people with five or more 
years of experience could easily reach $55,000 and above. Very 
often skilled craftsmen earn six figure incomes when overtime 
pay is factored in. Yes, manufacturing has changed. It is 
important to note that education programs are also changing in 
order to meet the needs of today's manufacturers.

    One lingering perception is that in order to be successful 
in this country one must have a four-year degree and a white-
collar job. Parents, high school guidance counselors, and 
others who have influence over our young people tend to steer 
high school students away from technical colleges. Too often, 
those that are steered toward technical colleges are the ones 
that counselors feel are ``not cut out for college.'' While 
there will always be a demand for individuals with four-year 
college degrees, the truth is that most--and I do mean most--of 
today's high-tech jobs can be filled by individuals with two-
year degrees or shorter certificates awarded by our nation's 
technical colleges. These technical colleges are our nation's 
pipeline to assure manufacturers have the work force needed to 
thrive in the United States. If I may use Georgia's technical 
colleges as an example, these institutions are regionally 
accredited, connected to business and industry, and allow 
students to prepare for good paying careers without 
accumulating large amounts of debt.

    Technical Colleges Provide Real-Life Education for Real-
Life Careers

    Georgia's technical colleges use a hands-on, lab based 
instruction model. Although our students learn theory, the 
majority of their course work is done in laboratory and 
clinical settings. Our instructors not only have the 
credentials needed to teach in a regionally accredited post-
secondary institution, but they also have work experience in 
the field in which they are teaching. For example, all of our 
welding instructors have been welders, all of our mechantronics 
instructors have worked as maintenance technicians in 
manufacturing plants, and all of our engineering technology 
instructors have worked as engineers or engineering technicians 
in industrial settings. Additionally, instructors from each of 
our more than 40 program areas meet at least two times each 
year with industry advisory boards from the specific industry 
for which they are preparing our graduates. These industry 
advisory boards review curriculum, examine laboratory 
equipment, and keep the college informed of trends so that the 
programs stay current and relevant. Our programs not only focus 
on the hard skills necessary to be successful in the workplace, 
but also on the work ethic, soft skills if you will, that 
employers expect to find in employees. These work ethics 
include attendance, character, teamwork, appearance, attitude, 
productivity, organizational skills, communication, 
cooperation, and respect. Because of this hands-on 
instructional model, delivered by practitioners, regularly 
reviewed by industry partners, with additional focus on soft 
skills, we guarantee our graduates. If an employer hires a 
technical college graduate and finds that he or she does not 
perform at an acceptable skill level, then we will retrain the 
graduate at no cost to the graduate or the employer. Our 
nation's technical colleges are uniquely prepared to assure 
manufacturers have the workforce needed to keep America's 
economy the strongest in the world.

    The Disconnect

    According to the National Association of Manufacturers, 
98.5% of our nation's 256,363 manufacturers are considered 
small business. Three-fourths of all manufacturers employ fewer 
than 20 people. Manufacturers are in almost every community 
across the nation. The average manufacturing worker in this 
country earns over $52,000 per year. When benefits are factored 
in, the average compensation for manufacturing jobs is just 
short of $80,000 per year. The overwhelming majority of these 
workers participate in health insurance programs through their 
employer. Over the next decade, nearly 3.5 million 
manufacturing jobs will be needed. Although manufacturers 
provider excellent pay and benefits, nearly 2 million of these 
3.5 million jobs are likely to go unfilled due to the skills 
gap.

    So we have good jobs. Today's young people represent the 
brightest generation this country has ever raised. So why the 
disconnect? I believe it goes back to perception and our long-
standing definition of the American Dream where we all have 
good paying jobs, with benefits, allowing us to support a 
happy, healthy family. More discussions such as the one we are 
having today are necessary to help change the perception. These 
discussions need to be held not only in the halls of Congress, 
but also in every community in America. We need events to 
encourage this discussion such as the Manufacturer's Forum held 
by the Great Hall Chamber of Commerce which bring together 
community leaders, high school administrators and counselors, 
business leaders, parents, and students. We need creative, 
outside the box solutions such as the partnership between 
Lanier Technical College, the Hall County and Gainesville City 
School Systems, Goodwill of North Georgia, and the Georgia 
Governor's Office of School Achievement which provide an 
alternate pathway to high school completion and career 
preparation for the growing number of very bright young people 
who have disengaged from the education process because they 
don't see the relevance. This program has provided outstanding 
results and has allowed a group of young people to go from 
being potential high school dropouts to skilled welders working 
for manufacturers such as Kubota.

    What Can Congress Do?

    I truly believe that in order to create awareness of the 
amazing careers available in manufacturing--and the critical 
nature of providing a highly-skilled, job ready workforce to 
meet the needs of manufacturers--this nation needs to 
experience a Sputnik Moment. Just as the national got behind 
the effort to become the world's leader in space exploration in 
the 1950s and 60s, this nation needs to get behind the effort 
to secure our nation's role s the world's leading manufacturer. 
Our world-wide communications and defense systems would not 
exist today without the efforts to lead space exploration 50 
years ago. Our place in the global economy 50 years from now 
will be determined by how we address the need to prepare 
today's young people to enter the nation's manufacturing 
workforce today.

    While I believe that local efforts are essential, I also 
believe there is a role for the Congress and the Federal 
Government. I believe the Congress has a unique opportunity to 
support technical colleges in workforce development as you 
reauthorize the Carl D. Perkins Career and Technical Education 
Act. I urge you to use this opportunity to encourage secondary 
and postsecondary institutions to work together with local 
business and industry partners to develop career pathways that 
support manufacturing and other careers in each specific 
community. A ``one size fits all approach'' to career pathways 
is not practical in a nation as large and as diverse as is 
ours.

    If a community is heavily engaged in manufacturing, then 
career pathways should reflect manufacturing. If a community is 
significantly engaged in manufacturing, health care and 
logistics, then career pathways should support those specific 
workforce sectors. These pathways should lead to postsecondary 
awards (degree, diploma, or certificate) and/or an industry 
recognized licensure or credential.

    I also ask that you consider funding year-round Pell. Just 
as manufacturers and other employers never stop operations for 
more than a week or two, most technical colleges operate on a 
year-round calendar. Students are expected to attend fall, 
spring, AND summer semesters. Because many of our programs are 
``lock-step'' in nature, students must go summer semester or 
risk having to sit out until that coursework is offered again. 
Technical training to support manufacturing is very rigorous. 
It requires the individual to learn a skill and become a 
proficient problems solver on a year-round basis. Manufacturers 
and businesses are looking for a steady stream of graduates--
not just in May. Many of our students rely on Pell Grants and 
other forms of state and Federal financial aid to help them 
afford postsecondary education. Year-round Pell would go a long 
way to helping college become even more affordable for many of 
our students.

    As we look to create a ``Sputnik Moment'' for career 
education, I would like to ask Congress to consider providing 
funds to improve our nation's education infrastructure. Many of 
our technical colleges were built in the 1960s. Although 
technical colleges work to keep equipment up-to-date, some 
equipment is in service much too long due to lack of resources. 
Just as our nation's highways and bridges form critical 
transportation infrastructure, education infrastructure 
provides the pathway from today into the future. I would also 
like to ask Congress to consider tax credits for businesses 
that invest in technical colleges by purchasing new or donating 
gently used equipment to help keep our infrastructure as 
current and modern as possible.

    Finally, every time I come to this place I am in awe. I am 
in awe of the great history of this place. I am in awe of the 
great leadership this nation has been blessed with. I am in awe 
of the work you do here every day. I ask that you be in awe of 
us. Be in awe of the amazing work that happens in our nation's 
technical colleges. Be in awe of the life-changing work we do 
in preparing young people and adults to enter the workforce 
with skills the skill sets that in high demand. Be in awe that 
the changes we are effecting are generational in nature. 
Grandchildren yet unborn will have a better quality of life 
thanks to the work our technical colleges are doing with their 
grandparent today.

    Conclusion

    In conclusion, I appreciate the time you have afforded me 
and this panel to discuss the new faces of American 
manufacturing. I ask for your help, and the help of the entire 
business and manufacturing community, in assuring our nation's 
technical colleges provide the trained workforce our nation 
needs in order for our economy to prosper for generations to 
come. Help us facilitate that ``Sputnik Moment'' to business, 
industry, young people, parents, and others who influence the 
decisions of our youth and make them aware of the high-tech 
nature of today's manufacturing environment, the excellent jobs 
with strong pay and benefits that are available in almost every 
community, and the understanding that you can attain the 
American Dream through graduating from one of our nation's 
technical colleges. Thank you. I will be happy to answer any 
questions.
                   Testimony of Kimberly Glas

          Executive Director of the BlueGreen Alliance

             United States House of Representatives

                    Small Business Committee

                     Thursday, May 12, 2016

                    As prepared for delivery

    Good morning Chairman Chabot, Ranking Member Velazquez, and 
members of the House Small Business Committee. My name is 
Kimberly Glas, and I am the Executive Director of the BlueGreen 
Alliance. On behalf of my organizations, our national labor 
unions and environmental partners, and the estimated 15 million 
members and supporters they represent, I want to thank you for 
holding these hearings today on, ``The New Faces of American 
Manufacturing.''

    In 2006, the United Steelworkers and the Sierra Club formed 
the BlueGreen Alliance with the belief that creating good jobs 
and protecting the environment were not mutually exclusive. In 
fact, in this increasingly globalized economy, we could no 
longer choose between jobs and the environment. We can and must 
have both.

    Since then, the BlueGreen Alliance has worked to create and 
maintain quality, family-sustaining jobs while also addressing 
our greatest environmental challenges. Our unique national 
partnership is dedicated to creating good jobs, a clean 
environment, and a fair and thriving economy.

    The clean energy economy is growing. A recent report by 
Environmental Entrepreneurs (E2) found that more than 2.5 
million Americans work in clean energy. Using data from the 
U.S. Bureau of Labor Statistics and the Department of Energy, 
the report found that there are 1.9 million jobs in energy 
efficiency and m ore than 400,000 in renewable 
energy.<SUP>i</SUP>

    At the center of all of our work is strengthening American 
manufacturing--driving new business and quality job creation 
across the clean economy. As the world moves to a cleaner, more 
efficient economy, there is a significant opportunity to ensure 
that these technologies--which are largely developed in the 
United States--are also produced here, creating good jobs and 
strong communities. Building and industrial energy efficiency, 
renewable energy, and advanced technology vehicles--these 
industries are growing rapidly and it is imperative that the 
United States commit to ensuring that they create quality jobs 
and strong communities in every corner of our country. The 
long-term health of the U.S. econony--and the prosperity of our 
families and communities--depend on American leadership in 
these industries.

    A number of years ago, the BlueGreen Alliance Foundation 
created the Clean Economy Manufacturing Center, which works 
directly with small manufacturers to help them identify 
opportunities and overcome obstacles to entering clean energy 
supply chains. The Center has worked hands on with hundreds of 
small companies, providing technical advice, research support, 
and training to aid them in evaluating capabilities and 
potential for becoming suppliers in key sectors of the clean 
energy economy. Over the past few years, and working with 
government initiatives like the Manufacturing Extension 
Partnership, this program served more than 1,200 companies 
nationally, including 100 companies that requested customized 
technical assistance.

    The manufacturing industry is core to the American economy 
and--while there have been success stories of growth--
significant challenges remain.

    Challenges to U.S. Manufacturing

    Manufacturing comprises a diverse market basket of goods 
and service production worth $2.08 trillion--or 12.5 percent of 
U.S. Gross Domestic Product, and supports 17.4 million jobs 
with 25 percent higher compensation than the U.S. economy 
overall.<SUP>ii</SUP> However, the U.S. manufacturing sector--a 
key driver to our economy--has faced significant challenges in 
recent years.

    According to the Economic Policy Institute, the United 
States lost more than 5 million manufacturing jobs between 
January 2000 and December 2014, thanks to destructive trade and 
tax policies and other measures that contributed to a growing 
trade deficit and an un-level playing field for American 
manufacturers--both large and small. Since the recession of 
2007-2009, an estimated 900,000 of the 2.3 million 
manufacturing jobs lost during that period have been 
recovered.<SUP>iii</SUP> However, a lack of adequate resources 
to enforce trade rules, in addition to currency manipulation 
and failed trade policies, risk turning back the clock and 
further exacerbating these threats to American manufacturers.

    Meanwhile, incentives remain for manufacturers to offshore 
production to lower wage locations with weak labor and 
environmental standards--in what amounts to a race to the 
bottom. For example, the United Steelworkers--a founding member 
of the BlueGreen Alliance--represent workers at a Carrier 
Corporation facility in Indiana. The company announced in 
February that it would close that facilities--which produced 
HVAC systems--outsourcing 1,400 jobs to Mexico.<SUP>iv</SUP> As 
we have seen over the last decade or so, when manufacturing 
jobs are lost, communities, workers, and local tax bases are 
devastated.

    This also presents a significant challenge when it comes to 
addressing climate change. When the United States imports 
manufactured goods from locations across the globe, the carbon 
intensity to make manufactured goods in that part of the world 
is contributing more greatly to climate change. For example, 
steel produced in China--a country that produces nearly half 
the world's supply--is more carbon intense than that which is 
produced in the United States.<SUP>v</SUP>

    Other challenges also remain to manufacturers in the United 
States who are seeking to grow. We thank the House and Senate 
for their recent longer term extension of critical federal 
incentives to grow renewable energy--the Production Tax Credit 
(PTC) and Investment Tax Credit (ITC). Policy uncertainty or 
inconsistency at federal level, however, has stunted industry 
growth in the past, and remains a concern at state level. An 
uncertain policy climate means inconsistent demand for new 
energy technologies, such as wind turbine manufacturing, and in 
turn for manufacturing the components and materials that go 
into them. In addition, while the U.S. has a variety of 
incentives to spur adoption of clean energy and efficiency, 
there are relatively few incentives for energy efficiency or 
clean energy manufacturing.

    Opportunities for Growth

    In these challenges, however, we see significant 
opportunity. Domestic and global markets for energy efficiency, 
renewable energy, transportation technology, and infrastructure 
are growing rapidly, resulting in potential opportunities for 
manufacturers across the sector. In our work, we see a 
particular opportunity for manufacturers to meet the growing 
demand for building and industrial efficiency. In addition, 
there is tremendous opportunity to modernize our public 
infrastructure, particularly in the manufacturing of components 
for America's passenger rail and transit sectors, and ensuring 
that we fully leverage the dollars we spend on infrastructure 
to drive clean, high quality American manufacturing and good 
job growth. It is also essential to ensure that the recovery of 
manufacturing and jobs in the automotive sector grows as 
technology continues to advance.

    Growing the U.S. Manufacturing Base Through Energy 
Efficiency Retrofits

    One of our newest efforts is our Energy Efficiency Housing 
Initiative. As the energy industry grows globally, there is a 
significant opportunity to grow associated domestic industries. 
The 2015 Green Building Economic Impact Study issued by the 
U.S. Green Building Council shows that green construction's 
growth rate is rapidly outpacing that of conventional 
construction and will continue to rise in the United 
States.<SUP>vi</SUP> It is critical that as this industry 
grows, domestic suppliers for the industry also grow--thereby 
multiplying the economic impact and creating good paying jobs 
across the spectrum.

    However, if no effort is made to integrate the growing 
demand for energy efficiency products with an economic 
development strategy that supports and expands the local supply 
chain to produce those products, other countries may be better 
positioned to capture the jobs and business opportunities. In 
addition, without a clear focus on the safety and health of the 
materials used to make affordable housing more energy 
efficient, we will be trading lower energy costs for greater 
health impacts and ignoring the potential manufacturing job 
growth from the production of safer materials.

    The BlueGreen Alliance Foundation's project is designed to 
understand more fully the gaps in the supply chain for these 
products and opportunities for manufacturers to grow in this 
sector. Our extensive outreach uncovered a broad range of 
energy efficiency housing products made in the United States, 
and is part of a larger national initiative to accelerate the 
retrofit of multifamily low-income facilities. Through this 
process, we discovered more than 1,000 U.S. manufacturers and 
distributors of products ranging from insulation to energy 
efficient lighting to HVAC systems. These manufacturers are 
looking for opportunities to grow in the United States and 
globally.

    This project is designed to help local communities capture 
the benefits of energy efficiency retrofits, including lower 
utility bills, improved tenant health, and increased economic 
development. It will also aid domestic manufacturers that are 
interested in learning about opportunities to participate in 
the energy efficiency retrofit market supply chain, low-income 
residents living in affordable housing, and building owners and 
contractors wanting to learn about energy efficiency housing 
products and potentially hazardous chemicals contained in some 
building materials. States and federal agencies should also 
prioritize the use of domestically manufactured, efficient, and 
non-toxic building materials where they are involved in 
building construction and upgrades.

    Industrial Energy Efficiency

    Similarly, the industrial sector also provides a major 
opportunity for efficiency improvements and jobs and 
manufacturing growth. As previously mentioned, manufacturing 
represents a significant portion of the GDP--about $2 
trillion--and supports more than 17 million workers. 
Manufacturing is also a heavy user of energy, accounting for 24 
percent of U.S. energy consumption.<SUP>vii</SUP> And while 
manufacturers are already investing heavily in energy 
efficiency, an additional 15-30 percent reduction in overall 
energy consumption is possible through further deployment of 
industrial efficiency (and on-site renewables) technologies.

    In addition to reducing emissions, taking advantage of 
efficiency opportunities can reduce operating expenses and the 
carbon footprint of energy-intensive, trade-exposed 
manufacturers, provide a hedge against rising fuel costs and 
have the additional benefit of making American manufacturing 
more competitive in the global marketplace. And while these 
benefits help major manufacturers preserve jobs in the United 
States, manufacturing, installing, and maintaining industrial 
efficiency equipment could provide a major boost to the many 
smaller companies that make this technology.

    The BlueGreen Alliance is also currently working in 
Illinois, Michigan, Minnesota, Ohio, and Pennsylvania, to 
identify, create, and maintain good manufacturing jobs in the 
energy sector. Key opportunities include legislative and 
regulatory measures that would boost funding for carbon 
emission reductions in the industrial sector--perhaps as part 
of a compliance approach to the Clean Power Plan. Other 
opportunities at the state level include complementary 
legislative and non-legislative efforts that would expand use 
of industrial efficiency, combined heat and power (CHP), waste 
heat to power (WHP), on-site renewables; engage a qualified 
workforce; and promote domestic manufacturing of clean energy 
components.

    Driving Manufacturing through Energy and Transportation 
Infrastructure

    The BlueGreen Alliance Foundation has also done extensive 
research on and outreach to manufacturers of components for 
America's passenger rail and transit sectors--as well as in 
advanced vehicles, components and materials. A 2015 report by 
the BlueGreen Alliance and the Environmental Law & Policy 
Center showed more than 750 companies in at least 39 states 
currently manufacturing components for passenger rail and 
transit rail.<SUP>viii</SUP>

    New BlueGreen Alliance analysis shows over 2,000 
assemblers, components, and subcomponents manufacturers who 
stand to benefit as the nation, states, and cities invest in 
transit vehicles, systems, and infrastructure. For example, 
these include major global companies like Siemens, which builds 
locomotives for Amtrak utilizing components from 69 suppliers 
in 23 states; one of those suppliers was Siemens' Norwood Motor 
plant, represented by IUE-CWA local 765. Electric motors have 
been built at this factory in Norwood Ohio for 100 years with 
many of the employees being the second or third generation of 
their family to work there. Similarly, investments in 
transportation infrastructure builds jobs at electronics 
manufacturers like Alstom Signaling in Rochester, New York, 
helping bring back jobs to manufacturing communities hard hit 
by previous generations of manufacturing decline.

    Investment in infrastructure is critical for American 
manufacturing. It is important that we more fully engage 
smaller domestic manufacturers in the transit supply chain, 
opening up opportunities for growth. But investment is just the 
first step in ensuring we build strong clean transportation 
manufacturing. It is critical that we also more fully engage 
smaller domestic manufacturers in the transit supply chain, 
opening up opportunities for growth.

    Incentives to Engage American Manufacturers and to ``Buy 
Clean''

    Public infrastructure projects utilize significant 
financial resources, often at the expense of the taxpayer. How 
these funds are spent can have a big impact on the overall 
benefits to local communities, to manufacturing, and to the 
U.S. economy. Compliance with long standing Buy America rules 
can be made more effective both for major projects and for the 
small manufacturers looking to take part in major projects. In 
addition, new model procurement language, such as the U.S. 
Employment Plan, recently adopted by Amtrak, provides clear 
quantitative measures for major bidders to take additional 
steps to improve domestic content, local jobs, and job quality.

    There is also opportunity to improve the energy and 
manufacturing outcomes of major infrastructure projects. These 
projects use energy-intensive manufactured materials--steel, 
cement, and plastic--for which the environmental impact can 
vary greatly from one mill to another, let alone from one 
country to another. Building bridges, tunnels, and transit 
systems that use inputs sourced from countries with weak 
environmental standards have long lasting implications with 
higher greenhouse gases and toxic air emissions. These 
taxpayer-funded projects can cost taxpayers much more than 
procurement costs. Put simply, a bridge cannot be built without 
steel, but a bridge can be built using the cleanest steel 
available.

    Recent analysis by the BlueGreen Alliance Foundation found 
that, for example, had ``Buy Clean'' criteria been integrated 
into development, procurement, and implementation stages of one 
construction project--the Bay Bridge--an estimated 180,000 tons 
of carbon emissions would have been averted, which is 
equivalent to taking 38,000 cars off the road in the United 
States for a year. According to the American Society of Civil 
Engineers, there is currently a $76 billion need to fix 
structurally deficient bridges in the United States. 
Establishing procurement criteria that incentivize more cleanly 
produced materials would not only result in significantly lower 
emissions, but improved safety and overall decreases in cost.

    Clean Vehicles

    Finally, no discussion of the promise of clean energy 
manufacturing would be complete without emphasizing the 
critical importance of continuing the recovery and growth of 
advanced automotive manufacturing in the United States. The 
industry, which anchors American manufacturing as a whole, has 
been transformed over the last eight years. Thanks to sound 
environmental, manufacturing, and economic policies working 
hand in hand, and also thanks to huge investments made by auto 
companies and workers. Americans are driving better, cleaner 
vehicles that dramatically cut carbon pollution and better 
protect the American economy from instability in global oil 
markets.

    At the same time, the industry has regained its competitive 
position globally, and brought back over 250,000 direct 
manufacturing jobs building new more fuel-efficient vehicles, 
advanced auto components, and innovative materials, in addition 
to millions of related jobs. But the industry continues to 
change rapidly, and whether considering turbocharged engines, 
continuously variable transmissions, high-strength steel, 
aluminum or carbon fiber, power electronics, or battery 
technology, it is vital to ensure that we build these 
technologies in companies large and small across the United 
States.

    Recommendations

    In summary, the BlueGreen Alliance believes several key 
factors are necessary to promote American manufacturing jobs.

    Market Certainty

    Large and small manufacturers across the energy sector need 
policy leadership and certainty to create the climate for 
robust private investment in these promising but emerging 
fields. The five-year extension of critical policies like the 
ITC and PTC is crucial to increasing demand for renewable 
energy component products. But additional mandates and 
investments are needed to further establish a domestically 
sourced renewable energy industry. Similarly, consistent, long-
term fuel economy and greenhouse gas reduction standards 
provide visibility and certainty critical for automotive 
assemblers and suppliers to make the large long-term 
investments necessary to retool to build the next generation of 
vehicle technology here.

    Rebuilding America's Energy and Transportation 
Infrastructure

    This year's passage of a long-term transportation bill was 
an important first step in providing consistent investment in 
infrastructure, but much more is needed to bring our energy and 
transportation infrastructure up to the level needed to support 
a leading economy. Investments to enhance and spur forward-
looking infrastructure are critical to building manufacturing. 
Also critical are measures to ensure that public dollars drive 
domestic manufacturing growth, and galvanize a rebirth of small 
manufacturing. These measures include:

          1) Facilitating and improving implementation of long-
        standing Buy America policies;

          2) Adopting innovative and best value procurement 
        practices that increase domestic suppliers access to 
        major infrastructure projects, and improve job quality, 
        skills and training; and

          3) Implementing Buy Clean criteria that ensure public 
        infrastructure dollars reinforce domestic investment in 
        state-of-the-art clean production of key materials, and 
        don't contribute to offshoring jobs and increasing 
        pollution.

    Manufacturing Efficiency, Clean Energy, and Vehicle 
Technology in America

    Federal policies should continue to promote adoption of 
clean and efficient technology and encourage investments to 
manufacture these technologies in America. This means boosting 
and restoring critical clean energy manufacturing programs like 
the Department of Energy's Advanced Technology Vehicle 
Manufacturing (ATVM) loan program--which helps attract and 
upgrade the major advanced assembly plants around which 
networks of large and small suppliers arise--and the 48C 
manufacturing tax credit from the American Recovery and 
Reinvestment Act, which provided incentives for hundreds of 
smaller manufacturers to enter clean energy fields. Continuing 
to build and improve regional hubs that link advanced clean 
energy or transportation technology innovation and 
manufacturing is also key.

    Expanding Assistance for Small Manufacturers

    Small manufacturers often need tailored assistance to take 
advantage of opportunities in the clean energy and energy 
efficiency markets. The National Institute of Science and 
Technology's Hollings Manufacturing Extension Partnership in 
the Department of Commerce partners in all 50 states, MEP 
``works with small and mid-sized U.S. manufacturers to help 
them create and retain jobs, increase profits, and save time 
and money,'' and has a number of programs aimed at helping 
small companies enter these emerging energy and transportation 
sectors.

    Growing the Energy Workforce

    The rapidly changing energy sector also brings big 
workforce opportunities and challenges. As older workers 
retire, it is critical to ensure that the next generation of 
workers is well trained for these safe, family-sustaining 
energy and transportation jobs. Partnering with established 
apprenticeship programs and other training programs can help 
ensure small manufacturers are on a level playing field when it 
comes to finding skilled workers.

    Conclusion

    In closing, Chairman Chabot, Ranking Member Velazquez, and 
members of the committee, allow me to again thank you for your 
important work to support small businesses and American 
manufacturing, and for granting me the opportunity to appear at 
today's hearing and provide a brief overview of how the 
BlueGreen Alliance Foundation and Clean Economy Manufacturing 
Center is working every day to achieve the goals shared by this 
committee--building a robust, sustainable American economy 
providing opportunities for businesses to thrive, American 
workers to prosper, and for a cleaner economy to protect the 
public and the environment.

    Thank you.

    ------------------------------
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
